Report No. DODIG-2013-081                     May 24, 2013




               Special Plans and Operations



   Assessment of U.S. Government and Coalition Efforts
   to Train, Equip, and Advise the Afghan Border Police
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.
                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                   INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGIN IA 22350-1500


                                                                                    May 24,2013


MEMORANDUM FOR SECRETARY OF DEFENSE
                         DEPUTY SECRETARY, DEPARTMENT OF DEFENSE
                         COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                             FORCE/UNITED STATES FORCES-AFGHANISTAN
                         COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                             FORCE JOINT COMMAND
                         COMMANDER,NORTH ATLANTIC TREATY ORGANIZATION
                             TRAINING MISSION-AFGHANISTAN/COMBINED SECURITY
                             TRANSITION COMMAND-AFGHANISTAN



SUBJECT: Assessment of U.S. G<?vernment and Coalition Efforts to Train, Equip, and Advise
            the Afghan Border Police (Report No. DODIG-2013-081)


We are providing this final report for review and comment. This is a continuation of a series of
repmts published by the Office of Inspector General's Special Plans and Operations directorate
that focus on the train arid equip missions in Iraq, Afghanistan, and Pakistan. We considered
client comments on a draft of this report when preparing the final rep mi.


We request additional comments and information by June 25, 2013, as follows:

   •   Commander, Intemational Security Assistance Force- Recommendations 2.a and S.c.

   •   Commander,NATO Training Mission-Mghanistan/Combined Security Transition
       Command-Afghanistan- Recommendations 3.c,7.b, 8.b,9,and 13.b.


Copies of your conunents must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual signature. If
you arrange to send classified comments electronically,you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).
                                                                                               ·




We appreciate the courtesies extended to our staff. Please direct questions to Mr. William G.
Jackson at (703) 604-9113, William.Jackson@dodig.mil,or William.Jackson@dodig.smil.mil.
THIS PAGE INTENTIONALLY LEFT BLANK
Assessment of U.S. Government and Coalition Efforts                        Report No. DODIG-2013-081
to Develop the Afghan Border Police                                                     May 24, 2013



                    Executive Summary–Assessment of
                    U.S. Government and Coalition Efforts
                    to Develop the Afghan Border Police

Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command and its subordinate commands in Afghanistan, the military departments, and agencies
responsible for and engaged in mentoring, partnering, training, equipping, and other aspects of
the development of the Afghan Border Police should read this report.

Background
The International Security Assistance Force (ISAF) Joint Command, and North Atlantic Treaty
Organization Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan (NTM-A), in coordination with the Ministry of Interior and the Afghan National
Police, have committed to the development of the Border Police force. The Afghan Border
Police is one of the eight police force pillars that comprise the Afghan National Police. It
consists of personnel recruited, trained, and assigned to provide security to the border security
zone that extends 50 kilometers into Afghan territory, as well as at border crossings and ports of
entry, such as airports and rail crossings. This mission entails significant shared responsibilities
and capabilities on the part of Coalition forces. ISAF is the executive agent responsible for
planning and executing the Border Police program. ISAF Joint Command is responsible for the
general support of the program and the Border Police units operating within their battle space.
Combined Security Transition Command-Afghanistan has the responsibility for managing the
use of U.S.C. Title 10 fiscal resources for equipping the Border Police and for building the
capacity of the Ministry of Interior in support of the Afghan National Police and the Afghan
Border Police.

The mission of the Afghan Border Police has been broken into two broad categories: green and
blue. The green border mission encompasses paramilitary and counterinsurgency functions in
the border security zone, such as safeguarding the national boundaries against external
aggression, taking immediate action against border incursions, and deterring insurgency and
criminal activities within the vast terrain between the established border crossing points. The
blue border mission focuses security functions at ports of entry and includes controlling the entry
and exit of individuals at borders and international airports, preventing all types of smuggling
(weapons, ammunition, goods, drugs, historical artifacts, humans, etc.) and controlling the entry
and exit of refugees and emigrants. Additionally, the Afghan Customs Police, a separate security
force jointly managed by the Ministry of Finance and the Ministry of Interior, collects customs
duties at border crossing points and ports of entry, with security at the crossings provided by the
Border Police.

The Afghan Border Police are responsible for providing border security along 5,529 kilometers
of international borders, 5 main airports, and 15 land and rail ports of entry. In coordination with
                                                      i
Assessment of U.S. Government and Coalition Efforts                                  Report No. DODIG-2013-081
to Develop the Afghan Border Police                                                               May 24, 2013

NTM-A, the Afghan government authorized a Border Police end-strength of 23,090 personnel,
and the Ministry of Interior approved 43 kandaks 1 in 6 zones and the capital region. Each zone
has unique terrain, cultural characteristics, and challenges. As of January 2013, NTM-A
reported 23,086 Border Police on duty.

Notable Progress
Although work remains to be accomplished, there were several noteworthy areas of progress
identified by the assessment team discussed in detail in Part I. These areas included:

Coalition Coordination – IJC hosted weekly synchronization meetings between ABP
points of contact from IJC, regional commands, NTM-A, the International Police Coordination
Board, U.S. Border Management Task Force, and other international police organizations
associated with Afghan Border Police development. We considered this a best practice for other
ANSF development points of contact.

Joint Border Coordination Centers – The Joint Border Coordination Centers at Khyber
Pass and Wesh-Chaman provide a meeting place for personnel from Afghanistan, Pakistan, and
U.S. forces to coordinate issues and provide open communication between the entities.

Ministry of Interior Logistics System Development – Although the MoI logistics
system is still not fully matured and does not fully support the ABP’s logistics requirements, the
DoD IG noted progress has been made, since our “Assessment of U.S. Government Efforts to
Train, Equip, and Mentor the Expanded Afghan National Police,” dated March 3, 2011.

Female Border Police Recruitment and Professional Development in the
North – ABP Zone 5 employed approximately one-third of the females working for the ABP.
The leadership was recognized for their efforts to integrate females into the zone and for
establishing support programs. For example, the Zone 5 Headquarters established a child
development center to support the women and their children.

Development and Use of Afghan Trainers – Afghans training Afghans throughout the
ANSF is critical for the continued building of ANSF capacity. At all of the police regional
training centers we visited, courses were being taught by Afghans instead of Coalition advisors
or contractors.

Challenges—Areas of Concern
Planning
Border Strategy – The Afghan Border Police often share mission space with other elements
of the Afghan National Security Forces (ANSF), including the Afghan National Army and other
Afghan National Police elements. However, the Ministry of Interior and the Ministry of Defense
do not have a plan to fully integrate the Border Police into a common border defense strategy

1
    A kandak is a battalion-sized unit within the Afghan National Security Forces, both ANA and ANP.


                                                         ii
Assessment of U.S. Government and Coalition Efforts                                  Report No. DODIG-2013-081
to Develop the Afghan Border Police                                                               May 24, 2013

that would enable the ANSF to sustainably provide border security without the assistance of
Coalition forces. Specifically, Afghan government and ANSF officials have not taken steps to
ensure other ANSF forces would support the Border Police with firepower, logistics, or shared
intelligence. Without the development of a common border defense strategy which includes the
Afghan National Army and all relevant Afghan National Police personnel, the government’s
ability to maintain border defense in the future as U.S. and Coalition forces drawdown is
uncertain.

Enablers – Coalition forces currently provide key enabling support to the Border Police in the
areas of engineering, intelligence, logistics, and casualty/medical evacuations. Border Police
capabilities in these areas are unlikely to mature before the scheduled 2013/2014 drawdown of
Coalition forces. ISAF, in coordination with the Ministry of Interior, has not completed the
planning to ensure the development or sustainment of these enablers. Without these enablers in
place, Border Police mission accomplishment will be at risk.

Tashkil Authorizations – Each zone has its own Tashkil 2 that establishes the requirements
for weapons, specialized personnel, and other equipment. However, the equipment levels
established in the Tashkil do not reflect the unique characteristics and requirements of each zone,
such as mission, enemy, or terrain. As a result, the zones were either over- or under-resourced.
In zones where equipment levels were above operational needs, Border Police officials were
unlikely to move excess equipment to areas where it was needed more, creating the risk for
waste or abuse of materiel. In zones that were under-resourced, zone commanders do not have
the resources to meet their operational needs.

Funding for Canine Program – Coalition forces and German Police Training Teams
worked with the Border Police to develop a canine program to search for explosives and
narcotics at airports and border crossing points. The program has achieved some stability and
has been moderately successful. However, neither Coalition forces nor the German Police
Training Teams had planned funding post-2014 to continue the program. As a result, Border
Police commanders at airports and major border crossings did not know if their canine teams
would be available post-2014, which prevented planning for effective security screening in the
future.

Execution
Corruption at Border Crossings – Afghan Border Police personnel support the work of
the Afghan Customs Police in collecting customs fees by providing security at border crossing
points and at major airports; however, alleged corrupt activities by the Customs Police was not
being investigated by the Border Police. This occurred because a Memorandum of
Understanding between the ministries of Interior and Finance was not being enforced. As a
result, Coalition forces estimate that the Afghan government’s ability to generate revenue at
major airports and border crossing points has been significantly impacted by suspected corrupt


2
 A Tashkil is the Afghan document that authorizes personnel and equipment for an organization, similar to a U.S.
military Modified Table of Organization and Equipment.


                                                        iii
Assessment of U.S. Government and Coalition Efforts                       Report No. DODIG-2013-081
to Develop the Afghan Border Police                                                    May 24, 2013

Customs Police practices and Border Police inability, or unwillingness, to eliminate or reduce
such activity.

Zone Commander Authority – Zone commanders cannot remove or appoint certain
personnel without approval from MoI. The Border Police adhere to a centralized military
command and control model for personnel issues, but this management model impedes the
ability of the zone commander to professionalize his forces by removing corrupt individuals and
appointing those with proven leadership abilities and potential. It also potentially fostered
corruption, cronyism, and nepotism by individuals at the highest levels of the Border Police and
the Ministry of Interior.

Logistics – Although improving, the Ministry of Interior logistics processes in support of the
Border Police were not capable of supplying them on a timely and sufficient basis. The highly
centralized logistics system required unnecessarily high levels of approval for issuance of minor
items of supply, and logisticians were either reluctant or unable to forecast requirements.
Locations of outposts, poor road conditions, and dangerous terrain required a route clearance
capability which was not organic to the Border Police. In cases where equipment was damaged
or destroyed, the logistics system was slow to investigate and issue replacement items. As a
result, some Border Police units did not receive authorized or replacement equipment and
supplies in a timely manner, hindering the zone commander’s ability to perform the mission.

Vehicle Maintenance – The Border Police conducts much of its green mission in remote
areas across very difficult terrain, and the current vehicle maintenance contract was not sufficient
to support their needs. For example, the contract did not require damaged or inoperable vehicles
to be retrieved by the contractor, requiring the Border Police unit to move the vehicle to the
contract maintenance site, delaying vehicle repair and impeding mission performance. Vehicle
maintenance facilities did not exist within a reasonable proximity of many outposts, and trained
mechanics were not readily available in rural areas where Border Police are located. The lack of
routine vehicle maintenance and timely vehicle repair created operational readiness and logistics
system issues.

Negligence – In cases where negligence or accidents resulted in damage, destruction, loss, or
theft of vehicles or other equipment, Border Police commanders did not enforce Ministry of
Interior policies or decrees that required a determination of accountability. The concept that
individual ABP are responsible for equipment damaged, lost, or stolen was not institutionalized
and, as a result, equipment was being damaged or destroyed at unacceptable and unsustainable
levels.

Identification Cards – Although the Ministry of Interior has made progress in re-vetting and
providing identification cards to Border Police personnel deployed throughout the country,
personnel in remote or dangerous locations had not been fully vetted. The Ministry of Interior
has a team responsible for re-vetting Afghan National Police units; however, the team had not
demonstrated the capability or desire to complete re-vetting of all Border Police personnel.
Inconsistent re-vetting processes provide the opportunity for fraudulent practices by allowing



                                                      iv
Assessment of U.S. Government and Coalition Efforts                             Report No. DODIG-2013-081
to Develop the Afghan Border Police                                                          May 24, 2013

corrupt officials to pay personnel who are not active on the rolls. Furthermore, failure to
complete re-vetting increases the potential for green-on-blue or green-on-green attacks. 3

Intelligence Training – Less than 20 percent of Border Police Intelligence personnel had
received classroom training at the Police Intelligence Training Center. Although billeting and
dining facilities were available at the training location, intelligence students were not authorized
to use them. As a result, Border Police commanders would not send students to receive the
training.

Border Police Training – Although Border Police recruits were required to attend police
basic training, which included introductory training in police operations, rule of law, human
rights, etc., approximately 15 percent of patrolmen had not attended. Zone commanders, Border
Police headquarters officials, and NTM-A differ on the actual number of personnel that have
received training. This raises concerns that not all Border Police will receive basic training.
Failure to provide a basic level of training to all personnel has hampered the professionalization
of the Border Police and, therefore, limited its mission effectiveness.

Gender Integration – Ministry of Interior recruiting goals and criteria for Border Police
gender integration did not reflect the unique mission requirements or societal limitations across
the zones. Some zones, such as Zone 5 in the north, have been able to integrate female Border
Police into their operations. But in other zones, the same effort to integrate females was not
occurring and did not appear to be socially acceptable. The gender integration goals set by the
Ministry of Interior will not be reached in most Border Police zones by the end of 2014. The
absence of female Border Police available for search and inspection of females at crossing points
and points of entry increases security risks and the possibility of continued revenue loss.




3
  Green-on-blue—an attack by an ANSF soldier or policeman on Coalition personnel; green-on-green—an attack by
an ANSF soldier or policeman on other ANSF personnel.


                                                      v
Assessment of U.S. Government and Coalition Efforts                    Report No. DODIG-2013-081
to Develop the Afghan Border Police                                                 May 24, 2013

Recommendations Table
                                    Recommendations Requiring
      Office of Primary                                           No Additional Comments
                                      Additional Comment or
       Responsibility                                              Required at This Time
                                           Information
Commander, ISAF                     2.a, 5.c                    1.a, 2.b, 5.a, 5.b
Commander, IJC                                                  11.c
                                                                1.b, 1.c, 3.a, 3.b, 4.a, 4.b, 6,
Commander, NTM-A                    3.c, 7.b, 8.b, 9, 13.b      7.a, 7.c, 8.a, 10, 11.a, 11.b,
                                                                12.a, 12.b, 13.a, 13.c

Please provide comments by June 25, 2013.




                                                      vi
Table of Contents

EXECUTIVE SUMMARY ........................................................................................................... i
INTRODUCTION......................................................................................................................... 1
     Background ............................................................................................................................... 1
     Public Laws ............................................................................................................................... 1
     Objectives ................................................................................................................................. 1
     Afghan Border Police Program ................................................................................................. 1
     Report Organization .................................................................................................................. 2
PART I – NOTABLE PROGRESS ............................................................................................. 3
PART II – PLANNING ................................................................................................................ 7
     Observation 1. Border Defense Strategy ................................................................................. 9
     Observation 2. Afghan Border Police Enablers Post-2014 .................................................... 13
     Observation 3. Afghan Border Police Tashkil Authorizations Versus
                    Actual Requirements ..................................................................................... 17
     Observation 4. Afghan Border Police Canine Program Post-2014........................................ 21
PART III – EXECUTION .......................................................................................................... 23
     Observation 5. Allegations of Corruption at the Major Border Crossings ............................ 25
     Observation 6. Afghan Border Police Zone Commander Authority ..................................... 31
     Observation 7. Afghan Border Police Logistics .................................................................... 33
     Observation 8. Automotive Management Services Maintenance Contract Supporting the
                    Afghan Border Police .................................................................................... 37
     Observation 9. Accountability for Damaged, Destroyed, Lost, or Stolen Vehicles and
                    Equipment ..................................................................................................... 43
     Observation 10. Minister of Interior Identification Card and Vetting Team ......................... 45
     Observation 11. Intelligence Training for Afghan Border Police.......................................... 47
     Observation 12. Afghan Border Police Basic Training ......................................................... 51
     Observation 13. Afghan Border Police Gender Integration................................................... 55
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS ....................................... 59
APPENDIX B. SUMMARY OF PRIOR COVERAGE ......................................................... 61
APPENDIX C. CRITERIA – MOI/ANP POLICY................................................................. 63
APPENDIX D. ORGANIZATIONS CONTACTED AND VISITED ................................... 65
APPENDIX E. MANAGEMENT COMMENTS .................................................................... 67
APPENDIX F. REPORT DISTRIBUTION ............................................................................ 81
THIS PAGE INTENTIONALLY LEFT BLANK
Introduction
Background
This is a continuation of a series of Congressionally-mandated, command-requested, and/or self-
generated reports published by the Office of Inspector General’s Special Plans and Operations
Component that focus on the train-and-equip missions in Iraq, Afghanistan, and Pakistan.
General areas discussed in these reports include:

    •   accountability of weapons transferred to the Iraq and Afghan Security Forces,
    •   accountability of night vision devices transferred to the Iraq Security Forces,
    •   effectiveness and responsiveness of the Foreign Military Sales system in support of the
        Iraq and Afghan Security Forces,
    •   logistics development of the Iraq and Afghan Security Forces, and
    •   review of the Coalition Support Fund Program and other DoD security assistance and
        cooperation programs with Pakistan.

Previous reports on these subjects may be viewed at http://www.dodig.mil/pubs/index.cfm.

Public Laws
Congress appropriated $46.34 billion to the Afghanistan Security Forces Fund in Public Laws
109-13, 109-234, 109-289, 110-28, 110-161, 110-252, 111-32, 111-118, 112-10, and 112-74.
These public laws specify that the funds will be used to provide assistance to the security forces
of Afghanistan, to include the provision of equipment and training.

Objectives
On August 21, 2012, the Department of Defense Office of Inspector General (DoD IG)
announced the “Assessment of U.S. Government and Coalition Efforts to Develop the Afghan
Border Police,” (Project No. D2012-D00SPO-0210-000). The objectives of this assessment were
to determine whether planning and operational implementation of efforts by U.S. and Coalition
forces to recruit, train, advise, and assist in the development of the Afghan Border Police (ABP)
were effective.

Afghan Border Police Program
The ABP is one of eight Afghan National Police (ANP) pillars reporting to the Ministry of
Interior (MoI), Deputy Minister for Security, and is a part of the Afghan National Security
Forces (ANSF). 4 The ABP is divided into six separate zones of responsibility for command and
control, plus the Capital Region, where the ABP Headquarters is located. They are tasked with
varied missions that, by definition, often occur at remote outposts along the 5,529 kilometers of
border that Afghanistan shares with six other nations. 5 Insurgent activities, large criminal

4
  The eight ANP pillars include: Afghan Uniform Police, Afghan National Civil Order Police, Afghan Border
Police, Afghan Anti-Crime Police, Enabling Forces, Afghan Public Protection Force, Judiciary Police, and Afghan
Local Police.
5
  Afghanistan shares borders with China, Iran, Pakistan, Tajikistan, Turkmenistan, and Uzbekistan.


                                                       1
patronage networks, opium smuggling, corruption, low literacy rates among personnel, and poor
communication capabilities across vast swaths of remote territory are challenges that require the
ABP to work closely with and be supported by the other ANP pillars and ANSF units to achieve
mission success. This is particularly true in areas of logistics coordination, air mobility, weapons
repair, and vehicle maintenance and repair.

The ABP conducts two types of missions, green and blue, with the green border security mission
being the much larger of the two using the majority of ABP resources. The green border mission
is primarily conducted over vast, often remote, terrain between established border crossing
points, whereas the blue mission is primarily conducted at border crossing points and airports.

Green border units in most zones are authorized to have automatic weapons, heavy mortars, and
recoilless rifles to defend against threats along the international borders with other countries and
throughout the Border Security Zone – an area extending 50 kilometers inland from the Afghan
border. Border threats include organized insurgent activity and sophisticated criminal smuggling
networks, which often occur in the very remote, difficult to access regions. ABP in these areas
were utilized to observe border incursion and coordinate the prevention of such incursions. And
from the Afghan point of view, the majority of the border checkpoints were there to prevent
border incursion and/or territorial expansion by neighboring countries.

The ABP blue border mission has a direct impact on Afghan national security and income
generation, yet the mission comprises more traditional border policing functions and requires
fewer ABP resources than the green border mission. The ABP blue border mission directly
contributes to Afghan national security through the interdiction of illicit items crossing borders at
border crossing points, such as fertilizer used for making explosive devices or narcotics, the sale
of which funds insurgent activities. In addition, ABP security at border crossing points and
airports enables collections of customs revenue by the Ministry of Finance (MoF) through the
Afghan Customs Police (ACP). According to Afghan MoF data, this revenue accounted for
nearly 50 percent of the Afghan domestic revenue in Solar Year 1390, 6 the latest year for which
data were available. 7 Other important ABP blue mission activities include immigration
screening, cargo inspection, local area intelligence, biometric scanning, and personnel searches
at border crossing points and airports.

Report Organization
This report consists of three separate sections addressing ABP:

    •   Notable Progress,
    •   Planning, and
    •   Execution.




6
  The Solar Hijri calendar is the official calendar of the government of Afghanistan. Solar Year 1390 runs from
March 21, 2011 to March 19, 2012.
7
  Islamic Republic of Afghanistan Ministry of Finance, Office of the Deputy Minister for Administration, Reform
Implementation & Management Unit, “Annual Performance Review Report 1390 On Strategic Plan,” May 2012.


                                                        2
PART I – NOTABLE PROGRESS




            3
THIS PAGE INTENTIONALLY LEFT BLANK




                4
Coalition Coordination
The primary commands involved in ANSF development and, more specifically, the Afghan
Border Police, are the North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A) and the
International Security Assistance Force Joint Command (IJC). NTM-A oversees the training and
equipping of Afghan forces, including advising at the ministerial level and at the police training
centers. IJC is responsible for operations throughout Afghanistan, including advising the ABP
on operations in the ABP battle space. In previous assessments, our DoD IG teams had observed
that the two commands did not always coordinate or communicate effectively towards one
objective. However, on this ABP assessment, IJC leadership hosted weekly synchronization
meetings with ABP points of contact from IJC, the regional commands, NTM-A, the
International Police Coordination Board, U.S. Border Management Task Force, and other
international police organizations associated with Afghan Border Police development. Briefings
included overall status of ABP forces throughout the theater and provided an avenue for all
participants to share operational, training, and ministerial development updates and lessons
learned. The DoD IG team recognized this as significant to developing the ABP and believes it
is a best practice other ANSF development points of contact would benefit from.

Joint Border Coordination Centers
The Joint Border Coordination Centers at Khyber Pass and Wesh-Chaman provide a meeting
place for personnel from Afghanistan, Pakistan, and U.S. forces to coordinate border issues. The
  Figure 1. Coalition, Afghan, and Pakistani Officials at the     DoD IG team recognized the
        Khyber Pass Joint Border Coordination Center              challenges Coalition commanders
                                                                  at the coordination centers face
                                                                  daily while performing this
                                                                  difficult mission, which
                                                                  contributed significantly to U.S.
                                                                  and Coalition efforts in
                                                                  Afghanistan to implement the
                                                                  broader Combined
                                                                  Comprehensive Border Strategy
                                                                  developed by the International
                                                                  Security Assistance Force
                                                                  (ISAF). According to Coalition
                                                                  force advisors, representatives
                                                                  from Afghanistan, Pakistan, and
                                                                  the coordination centers work
                                                                  together, side by side, to enable
Source: DoD IG                                                   communications, gather
                                                                 information on incidents and
reported incidents, mitigate cross border fire, develop trust and confidence, and, ultimately,
minimize border incidents and prevent escalation of force by either country.

Ministry of Interior Logistics System Development
Although the capabilities of the Ministry of Interior logistics system lag behind the Ministry of
Defense logistics system, the progress we observed since our “Assessment of U.S. Government


                                                 5
Efforts to Train, Equip, and Mentor the Expanded Afghan National Police,” dated March 3,
2011, was noteworthy. In that assessment we stated, “The ANP logistical system is in a nascent
state of development and lags operational needs.” During this assessment, the Coalition force
advisors we interviewed reported Afghans using the logistics system, as designed, to request or
“pull” supplies using the MoI Form 14 Materiel Request, 8 instead of waiting for a “push” of
material, an improvement that demonstrates an increasing capacity for managing logistics. 9
Although the system is still not fully matured and does not yet fully support the ABP’s logistics
requirements, Coalition personnel, ABP leaders, and the DoD IG team noted that progress has
been made.

Female ABP Recruitment and Professional Development in
the North
According to MoI data, ABP Zone 5, in Northern                Figure 2. Female ABP Officers in Zone 5
Afghanistan, employed approximately one-third                               (RC-North)
of the females working as ABP across all of
Afghanistan. During the DoD IG’s visit to the
zone, ABP officials and Coalition advisors
reported that women were working in the ABP
headquarters, as well as at the border crossing
sites. An ABP official from Zone 5 reported that
female non-commissioned officers had been
promoted into officer ranks. Additionally, to
support the women further, a child development
center had been established at the Zone
headquarters offices for women with preschool-
aged children, plus females were provided
separate training courses from males, when
deemed appropriate.                                          Source: DoD IG


Development and Use of Afghan Trainers
Afghans were training other Afghans throughout the ANSF, including at regional police training
centers formerly staffed by Coalition force advisors and contractors. All three of the regional
police training centers we visited demonstrated courses taught by Afghan trainers. NTM-A and
IJC officials consistently spoke of the growth in “train the trainer” courses in order to build
ANSF capacity. As Coalition forces continue to transition training functions to the ANSF, this
method of instruction will be critical for the continued building of ANSF capacity, including that
of the ABP.




8
  MoI Form 14 Materiel Request is the document used by all MoI organizations and units to order all commodities
of materiel using the MoI supply system.
9
  Under a “push” logistics system, planners estimate the supply requirements and arrange to have the supplies
delivered or “pushed” to the supported elements. Under a “pull” system, supply requests are generated by the
supported elements so that they “pull” the necessary supplies.



                                                        6
PART II – PLANNING




        7
THIS PAGE INTENTIONALLY LEFT BLANK




                8
Observation 1. Border Defense Strategy
The MoI and ABP do not have an effective and sustainable border defense strategy that is
coordinated with the MoD.

The Ministries of Interior and Defense have failed to fully integrate the Border Police with ANP
and Afghan National Army (ANA) forces so as to create an effective, reinforcing, in-depth
defensive strategy. The government of Afghanistan and the MoI have come to rely on U.S. and
Coalition resources to support the ABP and compensate for its border security limitations.

Without the development of a common border defense strategy that includes both ANA and all
relevant ANP personnel, the Afghan government’s ability to maintain border defense in the
future as U.S. and Coalition forces draw down will increasingly be jeopardized.

Applicable Criteria (See Appendix C, Number 4, for additional details.)
       •   Ministries of Interior and Defense and National Directorate of Security, Joint Order 179,
           September 13, 2012.

Discussion
Differing Border Defense Strategies
After discussions with Coalition, U.S., and Afghan officials, we determined that each side has
differing views on how to approach border defense. For Afghan officials, their primary concerns
were related to the incursion of neighboring countries across the border and filling as many gaps
as possible between border crossing points and checkpoints. One MoI official stated that an
additional 11,300 ABP personnel would be needed to cover all the open spaces on the border that
are currently not controlled: “We must protect our borders with Pakistan and Iran.” In the north,
the zone commander requested nearly 90 additional checkpoints in his zone and the requisite
associated personnel to guard the northern borders with Uzbekistan and Tajikistan. And another
MoI official commented on the “eastern border security problems with Pakistan” and
recommended that the ABP more than double its current size in order to adequately defend all of
Afghanistan’s porous borders.

U.S. officials, on the other hand, are promoting a layered, defense-in-depth strategy to provide
for Afghanistan’s border defense. Defense-in-depth is the coordinated use of multiple security
countermeasures to protect assets and is based on the principle that it is more difficult for an
enemy to defeat a complex and multi-layered defense system than to penetrate a single barrier.
Therefore, the defense strategy proposed by the U.S. doesn’t focus solely on building up
personnel and checkpoints on the borders; instead, it relies on a coordinated, layered security
effort from all pillars of the Afghan National Security Forces 10 and involves establishing not only
border security, but also provincial, district, and local (village) security. One Coalition official
stated that “[w]e made a mistake in Iraq by concentrating on the borders, away from the
population centers. A COIN [counterinsurgency] war must focus on the people or you lose...
This war should be ‘population-centric’ and borders [should be] secondary.”


10
     The ANSF includes the ANA and all elements of the ANP.



                                                       9
Cooperation Between the Afghan Border Police and Afghan National Army
In order for a layered defense strategy to be successful, there needs to be a coordinated effort
between all pillars of the ANSF. At present, there does not appear to be any regular support and
cooperation between the ABP and ANA. One of their primary challenges, according to most of
the ABP commanders we interviewed, was the lack of consistent ANA support in road clearing
operations. Counter-improvised explosive device (C-IED) units were not authorized on the ABP
Tashkil; therefore, the ABP did not have trained C-IED personnel capable of clearing roads of
explosive devices prior to any troop and equipment movement. As such, the ABP relied on the
ANA for almost all road clearing activities. In discussions with the various zone commanders,
we found that ANA assistance was inconsistent across zones and was primarily dependent on the
ABP zone commanders’ personal relationships with ANA commanders. The Zone 1 commander
said he had close personal relationships with many of the ANA commanders in his area of
operations and, therefore, had no problems coordinating with the ANA for assistance with road
clearance. Coalition advisors in Zone 5 stated that the army and police worked well together in
the north. Other ABP commanders in other zones, however, did not have the benefit of such
relationships and struggled to coordinate C-IED activities with the ANA.

Casualty evacuations also presented a problem for the ABP. In the five zones visited, we found
that the ABP were able to evacuate certain non-life-threatening casualties via ground
transportation; however, serious casualties, especially those with the potential for the loss of life
or limb, almost always required Coalition forces to provide medical evacuation services via air.
Not only did the ABP lack access to the necessary air transportation assets, but the medical
training and equipment provided on the Tashkil was inadequate. Only in a few instances in
Zones 1 and 2 did we find evidence of the ANA providing assistance with casualty evacuation.
Both Coalition and Afghan officials in those zones stated that the ABP had been more successful
getting casualty evacuation assistance from the Pakistan military across the border than from the
ANSF.

Coalition force-generation efforts focused initially on the ANA; therefore, the ANA has more
well-established weapons, intelligence, and logistics capabilities than the ANP and its pillars.
Afghan Joint Order 179 is an Afghan-prepared document which takes this fact into consideration
and directs the coordination of operations between the ANA and ANP, to include route clearing
and evacuation activities. After speaking with Afghans and Coalition advisors, it appeared they
were aware of Joint Order 179 and its provisions; however, the provisions were not being
enforced. Joint Order 179 was not signed by the Ministers of Interior or Defense and,
historically, we have been informed that the Afghans will not adhere to some orders or ciphers if
not actually signed by the Ministers.




                                                 10
Recommendations
1.a. Commander, International Security Assistance Force, with assistance from North Atlantic
Treaty Organization Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan, coordinate with the Ministers of Interior and Defense to develop a Combined
Comprehensive Border Strategy that emphasizes an integrated, layered-security plan between
the Afghan Border Police, Afghan Uniformed Police, and Afghan National Army.
1.b. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, advise the Ministers of Interior and
Defense to reissue the Joint Order 179 with their respective signatures, granting authority for
coordination of support between the Afghan Border Police and Afghan National Army to
commanders at the kandak level.
1.c. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with Commander,
International Security Assistance Force Joint Command, advise the Ministers of Interior and
Defense to enforce the provisions of Joint Order 179.


Client Comments
ISAF partially concurred with Recommendation 1.a. ISAF asked us to revise the
recommendation by incorporating more specific language regarding the Combined
Comprehensive Border Strategy.

NTM-A concurred with Recommendation 1.b. NTM-A agreed that Joint Order 179 should be
reissued by the MoI and MoD to their respective organizations.

NTM-A concurred with Recommendation 1.c, noting that in order for this recommendation to be
implemented, the Ground Forces Command will need to be empowered by the MoD and, to a
lesser extent, the MoI. NTM-A stated that they will encourage ANSF elements to pursue
opportunities for cooperation from the ministerial level down to the kandak level, with a
particular focus on the role and coordinating authority vested in the commander of the Ground
Forces Command, in both urgent operational situations and in order to realize efficiencies in
training and equipping opportunities.

Our Response
ISAF comments to Recommendation 1.a were responsive. We accepted ISAF’s proposed
revision to the recommendation and will request an update in six months on the status of the
Combined Comprehensive Border Strategy between the Afghan Border Police, Afghan
Uniformed Police, and Afghan National Army.

NTM-A comments to Recommendations 1.b were responsive. In six months, we will request a
copy of the reissued Joint Order 179, signed by the Ministers of Interior and Defense.

NTM-A comments to Recommendations 1.c were responsive. We will request an update in six
months.




                                                11
THIS PAGE INTENTIONALLY LEFT BLANK




                12
Observation 2. Afghan Border Police Enablers Post-2014
Key enabling capabilities that are essential to the support of ABP operational effectiveness, such
as C-IED and explosive hazard reduction, engineering, heavy weapons, quick reaction forces,
intelligence, logistics, and casualty/medical evacuation, may not be mature by the end of 2014.

This occurred because of the U.S. and Coalition forces’ decision to generate operational forces
first, prior to the development and fielding of enabling forces and capabilities. Furthermore,
ISAF, in coordination with the MoI, has not yet completed the planning for development of those
enablers that have not matured by the end of 2014.

Failure to develop necessary post-2014 ABP enablers or to provide mitigating U.S. and Coalition
force capability pending development of ABP or Afghan government organic capabilities could
put the ABP mission at risk.

Applicable Criteria (See Appendix C, Numbers 7 and 8, for additional details.)
   •   MoI Deputy Minister for Strategy and Policy, “National Police Plan for Solar Years
       1390-1391,” February 2011.
   •   MoI Deputy Minister for Strategy and Policy, “National Police Strategy,” March 2010.

Discussion
During the initial planning phases of ANSF fielding and development, a conscious decision was
made to initially focus on developing the ANSF combat capability, thus delaying the
development of enabling forces and capabilities. In the interim, ISAF has provided the enabling
support to the ANSF. This force generation model was also the basis of ABP fielding and
development. Consequently, key enabling capabilities essential to the ABP mission may not be
mature by the end of 2014.

The Afghan National Police Plan of 2012 states that protecting the borders of the country is one of
the primary objectives of the National Police. The Afghan National Police Strategy for 2012 states,
“[t]he border police face major problems in maintaining the security of the borders because of
the lengthy borders of the country, a series of recent natural disasters, and the lack of required
capabilities. The key to solving these issues is enhancing the border police capabilities.”

The DoD reported in their December 2012 “Report on Progress Toward Security and Stability in
Afghanistan” that while positive momentum is evidenced by the ABP’s mission at the regulated
points of embarkation, including 5 airports and 14 border control points, the ABP made slow
progress toward self-sufficiency during the reported period. Its mission is difficult with a
number of inherent factors that prevents rapid progress toward self-sufficiency. Given its
challenges, the ABP’s progress towards self-sufficiency specifically required completing the
development of critical enabling capabilities.

NTM-A identified the following shortfalls in required ANSF enabling capabilities, which are
also applicable to the ABP:

   •   C-IED and explosive hazard reduction,
   •   engineering,


                                                13
     •   heavy weapons (82mm mortars and recoilless rifles),
     •   bio-metrics capability at major airports and border crossings,
     •   quick reaction forces,
     •   intelligence,
     •   logistics, and
     •   casualty/medical evacuation.

Coalition force advisors reported that the ABP are able to plan and conduct successful
operations, both offensive and defensive, in their assigned battle space, in coordination with
other elements of the ANSF, but with Coalition forces enabling assistance. Providing this
support will become increasingly difficult as the Coalition forces reduce their “boots on the
ground” in Afghanistan.

During interviews, the ABP commander, ABP staff officers, ABP zone commanders, and
Coalition/U.S. advisors informed the assessment team of the importance of developing these
enablers in order for the ABP to become self-sufficient. The ABP will probably not have
developed a stand-alone capability in several of these enablers by the end of 2014.

ISAF is working to develop plans and resourcing options to mitigate identified ABP enabler
short-comings. These plans will require Coalition forces to provide tailored enabling support
post-2014 until the ABP develops their own capabilities in these areas.

NTM-A is working through the Afghan Requirements and Resourcing Validation Process 11 to
plan for and resource development of the critical ABP enabling capabilities required. The MoI
and ANP are full participants in each step of the process. Requests for requirements
consideration are not accepted without the approval of the ANSF at the two-star general officer
level.

Completing development of ABP enabling capabilities will be challenging, given pending
changes in the Coalition mission and in-country footprint. However, failure to develop
necessary enablers, whether pre- or post-2014, could put the ABP mission at risk.




11
   A process/working group, chaired by NTM-A, with representation by IJC and MoI, which determines the validity
of requests for additional ANSF personnel and equipment authorizations. The group considers various factors
before making a recommendation to a General Officer Steering Committee, including finds available to support the
request, both now and in the future, supportability by the Afghans, and possible alternatives.



                                                      14
Recommendations
2. Commander, International Security Assistance Force, in coordination with Commander,
International Security Assistance Force Joint Command, Commander, North Atlantic Treaty
Organization Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan, and the Minister of Interior:
   a. Identify Afghan Border Police enablers that will not be mature by the end of 2014.
   b. Complete development of Coalition force mitigating plans/actions to generate, advise,
and assist an Afghan National Security Force-led effort to provide interim, post-2014 enabler
support until Afghan Border Police enabler capability is sufficiently developed.


Client Comments
ISAF concurred with Recommendation 2.a, as written, providing no additional comments.

ISAF partially concurred with Recommendation 2.b. ISAF asked us to revise the
recommendation to incorporate language more specific to the development an ANSF-led effort
towards improving ABP enabler capability.

Our Response
ISAF comments to Recommendations 2.a were partially responsive. We request a list of the
enablers that will not be mature by the end of 2014.

ISAF comments to Recommendation 2.b were responsive. We modified Recommendation 2.b
based on ISAF’s comments and no further action is required at this time. Another DoDIG
assessment on Coalition planning for the development of critical ANSF enablers was announced
on December 18, 2012, with the fieldwork conducted in Afghanistan in March 2013.




                                               15
THIS PAGE INTENTIONALLY LEFT BLANK




                16
Observation 3. Afghan Border Police Tashkil Authorizations
Versus Actual Requirements
The ABP Tashkil authorizations for the six ABP zones did not clearly establish the requirement
for weapons, specialized personnel, and other equipment specifically necessary to support each
individual zone’s mission consistent with their unique characteristics and needs.

This appears to have resulted from a failure to update the original ABP Tashkil, which allocated
resources to each zone without consideration given to their differing terrain, insurgent, and cross-
border criminal activity. Unequal fielding of specific types of equipment has worsened this
situation, in some cases.

As a result, zones were either over- or under-resourced since the Tashkil had not been adjusted to
the actual requirement for specific types and numbers of weapons, equipment, or personnel in
each zone. The current Tashkil in effect thus prevents zone commanders from having the
resources to adapt forces effectively to operational needs.

Applicable Criteria (See Appendix C, Number 2, for additional details.)
     •   Afghan National Police, “Solar Year 1391 Tashkil,” January 2013.

Discussion
Tashkil Authorizations Do Not Accurately Reflect Requirements in Each
Zone
According to the most recent DoD “Report on Progress Toward Security and Stability in
Afghanistan,” the percentages of reported enemy-initiated attacks 12 throughout Afghanistan from
April 2012 through September 2012, by regional command (RC), were as depicted in Figure 3.
The regional commands in the east, south, and southwest accounted for 92 percent of all enemy-
initiated attacks during the reporting period. Given the volatility and based on the amount of
enemy activity in these regional commands, it would be prudent for the ABP in these areas to
have the numbers of equipment, weapons, and personnel resources aligned with their actual
requirements; however, the Tashkil authorizations did not appear to accurately reflect these
requirements.

For example, the Tashkil authorized RC-N and RC-W 60 percent more ambulances and nearly
35 percent more grenade launchers, machine guns, and personnel than RC-S and RC-SW, where
insurgent activity and ABP casualties were greatest. There were also 150 percent more fuel and
water trucks authorized in RC-N and RC-W than in RC-E, RC-S, and RC-SW combined, where
water was the most hard to find. Additionally, the Tashkil authorized RC-N a heavy weapons
company and the associated equipment and weapons, such as mortars, while RC-S and RC-SW
were not authorized heavy weapons companies. This was despite the fact that RC-N and RC-W
only accounted for nine percent of enemy-initiated attacks in Afghanistan.


12
   Enemy-initiated attacks are defined as enemy action (enemy-initiated direct fire, indirect fire, and surface-to-air
fire) and explosive hazard events, including executed attacks only and not potential or attempted attacks.



                                                          17
                               Figure 3. Enemy-initiated Attacks in Afghanistan
                                           (Apr. 2012 to Sep. 2012)




                                30%                                                   RC-E (Zones 1 and 2)
                                                         41%
                                                                                      RC-S (Zone 3)
                                                                                      RC-W (Zone 4)

                                          21%                                         RC-N (Zone 5)
                    4%
                                                                                      RC-SW (Zone 6)
                         5%



         Source: DoD “Report on Progress Toward Security and Stability in Afghanistan,” December 2012.

We also found that the Tashkil did not authorize any zone certain specialized personnel.
Improvised explosive devices still represent a serious threat in Afghanistan and many border
policemen are killed by IEDs each year, but there were no C-IED positions identified on the
Tashkil. In each zone we visited, Coalition and ABP officials stressed the need for a C-IED
capability to be included on the Tashkil. Without any C-IED personnel or equipment authorized
on the Tashkil, Border Police could not receive the C-IED training necessary to detect and
neutralize IEDs. Therefore, the ABP relied on the ANA for help in clearing routes of IEDs, even
though the relationship between the ABP and ANA in some zones was tenuous and the
assistance provided inconsistent (see “Observation 1. Border Defense Strategy”). In addition,
facilities engineering and mechanic positions were not authorized on the Tashkil. Without these
personnel, Coalition advisors expressed concern that the ABP would not be able to maintain the
facilities and vehicles allocated to them once Coalition forces draw down.

Authorized Tashkil Quantities Do Not Match Fielded Quantities
Throughout the ABP, we found that actual quantities of equipment and weapons fielded did not
match the quantities authorized on the Tashkil:

     •   One zone fielded 300 percent of their Tashkil-authorized 9mm pistols, whereas another
         zone only had 60 percent of their authorized pistols.
     •   Some zones fielded more than 125 percent of their authorized shotguns, while another
         zone had only fielded 60 percent.
     •   One zone reported having 250 percent of their Tashkil authorization for one type of
         up-armored tactical vehicle, but only 25 percent of another type of similar vehicle.
     •   Certain zones which were authorized mortars on the Tashkil had none, while other zones,
         which were not authorized mortars, reported having them in their inventory.

A practical solution would be the cross-leveling 13 of equipment and weapons, both across and
within the zones, in order to redistribute excess materiel in accordance with the Tashkil;


13
   Cross-leveling is the authority and ability to shift materiel inventory from one owner to another in order to meet
the requirement of another.



                                                          18
however, our discussions with Coalition advisors in each zone visited indicated that the ABP did
not appear to be receptive to the concept:

      •    Zone 1: “The ABP will not cross-level – they will ask for more equipment first.”
      •    Zone 2: “There is inequity in the distribution of equipment, but the kandak commanders
           will not give anything to another kandak. The culture here is tied to hoarding and having
           equipment is a form of power.”
      •    Zones 1 and 2: “Afghan commanders have a hoarding mentality and are unwilling to
           transfer any excesses.”
      •    Zone 3: “There has not been any success in getting the ABP to cross-level in this region.”
      •    Zone 5: “Cross-leveling is not happening.”
      •    Zone 6: “Without a cipher, 14 the ABP will hold on to the excess equipment and there will
           be no cross-leveling.”

Without cross-leveling, the zones and kandaks will continue to have over- and under-resourced
quantities of materiel, thus hindering their ability to conduct successful operations.

Recommendations
3.a. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with Commander,
International Security Assistance Force Joint Command, advise the Minister of Interior to
conduct a mission, enemy, terrain, troops, and time available analysis across the Afghan
Border Police zones to determine mission, personnel, and equipping requirements specific to
each zone.
3. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, advise the Minister of Interior to:
    b. Update the Afghan Border Police Tashkil personnel and equipment authorizations based
on the above analysis.
   c. Issue a cipher signed by the Minister of Interior directing the cross-leveling of personnel
and equipment between zones and kandaks to meet new Tashkil authorizations.


Client Comments
NTM-A concurred with Recommendations 3.a, 3.b, and 3.c. NTM-A stated the Command Plan
Review is conducted every solar year and this process is the primary means by which the ABP
initiates and influences Tashkil changes at the ministerial level. NTM-A also noted that
Coalition assistance is required to guide the process, translate the analysis into Tashkil
adjustments, and initiate direction for cross-leveling between zones and subordinate commands.




14
     A cipher is the Afghan written equivalent of a U.S./Coalition written operations plan or order.



                                                           19
Our Response
NTM-A comments to Recommendations 3.a and 3.b were responsive. We will request an update
in six months on how the latest Command Plan has captured the results of the mission analysis
across ABP zones.

NTM-A comments to Recommendation 3.c were responsive. We request a copy of the signed
MoI cipher directing the cross-leveling of personnel and equipment between zones and kandaks
to meet new Tashkil authorizations. We will request an update in six months on the status of
cross-leveling between the ABP zones and the kandaks.




                                             20
Observation 4. Afghan Border Police Canine Program
Post-2014
Neither NTM-A nor the German Police Project Team (GPPT) have developed plans for
post-2014 to support the canine unit program at Afghan airports and selected border crossing
sites.

This has resulted because GPPT and NTM-A have no current plans to fund the program post-
2014 and of the failure to identify alternative funding sources.

As a result, ABP commanders at the airports and major border crossings may not have a canine
capability post-2014, which would degrade security screening at key crossing sites.

Applicable Criteria
None

Discussion
The ABP canine unit program at Afghan airports and selected border crossing sites is the result
of a bilateral agreement between the Federal Republic of Germany and the government of
Afghanistan; however, the program did not appear to have long term support. As of this report,
NTM-A and the GPPT had not committed any financial resources beyond 2014.

The ABP canine program currently has 26 dogs, and Afghan dog handlers are being mentored by
the GPPT. The goal is to have 50 dogs fielded by the end of 2014. NTM-A officials have
advocated continued operational use of the canine program to ABP leadership because of its
perceived strong detection and deterrent effects and relatively low sustainment costs.

Should the German sponsorship not go beyond 2014, the MoI and the ABP leadership will need
to determine how much of this capability can be retained within their overall ANSF budgetary
constraints.

Recommendations
4. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan:
   a. In coordination with Embassy Kabul and the German Police Project Team, conduct a
requirements review with the Minister of Interior to determine whether the continued use of
canine units by the Afghan Border Police at officially controlled points of entry into
Afghanistan post-2014 is practicable.
   b. If deemed operationally necessary, determine an appropriate funding source to support
the Minister of Interior canine program.




                                               21
Client Comments
NTM-A concurred with Recommendations 4.a, but provided no further comments.
They also concurred with 4.b. stating that funding source options are recommended to include
the development of an Afghan-led requirements and resource validation and approval process to
mirror the current Coalition process.

Our Response
NTM-A comments to Recommendations 4.a were responsive. In six months, we will request a
status of the requirements review to be conducted with the MoI to determine whether the
continued use of canine units by the ABP at officially controlled points of entry into Afghanistan
post-2014 is practicable.

NTM-A comments to Recommendation 4.b. were partially-responsive. The intent of the
recommendation was for NTM-A to identify/determine a funding source specifically to support
the canine program within the MoI/ABP should the determination be made to continue the ABP
canine unit program. We will request an update in six months.




                                                22
PART III – EXECUTION




         23
THIS PAGE INTENTIONALLY LEFT BLANK




                24
Observation 5. Allegations of Corruption at the Major Border
Crossings
Alleged corrupt practices by the Afghan Customs Police (ACP) at the border crossing points,
possibly in collusion with elements of the ABP, have impeded the Afghan government’s ability
to effectively generate significant government revenue at those crossing points.

This has occurred because the current agreement between the Ministries of Interior and Finance
establishing authorities over customs-related activities at border crossings was not being
enforced.

As a consequence, the Afghan government was estimated to be losing several billions of dollars
annually from customs fees that were not collected for the Ministry of Finance (MoF) at major
border crossings.

Applicable Criteria (See Appendix C, Number 5, for additional details.)
     •   Ministries of Interior and Finance, “Memorandum of Understanding on Managing the
         Border Crossing Points,” July 2009.

Discussion
Per the DoD December 2012 “Report on Progress Towards Security and Stability in
Afghanistan,” corruption remained a critical issue, especially in the MoI and its subordinate
police organizations—a condition that threatened to undermine public perception of the security
ministries and ANSF as capable and legitimate security providers for Afghanistan. Widespread
corruption continues to limit the effectiveness and legitimacy of the Afghan government.

Transparency International’s “Corruption Perceptions Index” 15 scores countries on how corrupt
their public sectors are perceived to be. Of the 176 countries ranked in the latest index,
Afghanistan ranked last, tied with North Korea and Somalia in terms of public perception of
corruption. In 2010, the United Nations Office on Drugs and Crime 16 issued a report on the
prevalence of bribery in obtaining public services in Afghanistan. The report noted that ACP
officers were most likely to request the highest bribe values for those incidents of bribery
reported by victims, as shown in figure 6.

According to MoF data for Solar Year 1390, customs revenue accounted for nearly 50 percent of
Afghanistan’s total domestic revenue; 17 however, it has also been reported that up to 70 percent



15
   The “Corruption Perceptions Index” uses a combination of polls to gather the perceptions of country analysts,
business people and the general public in order to develop a reliable estimate of the nature and scope of corruption
in a given county. See the 2012 results at http://www.transparency.org/cpi2012/results.
16
   United Nations Office on Drugs and Crime, “Corruption in Afghanistan – Bribery as reported by the victims,”
January 2010.
17
   Islamic Republic of Afghanistan Ministry of Finance, Office of the Deputy Minister for Administration, Reform
Implementation & Management Unit, “Annual Performance Review Report 1390 On Strategic Plan,” May 2012.



                                                         25
of potential border revenue may be lost to corruption 18. The annual domestic revenues of the
Afghan government were approximately $2 billion for the year ended March 19, 2012.
Therefore, the estimated loss at border crossing points would comprise a significant source of
additional revenue.

During our visit to Afghanistan, the DoD IG team visited the border crossings at Torkham and
Wesh-Chaman, the two largest and busiest border crossings in Afghanistan which generate the
majority of the country’s approximately $1 billion in customs revenue. Coalition advisors at
Torkham and Wesh-Chaman agreed that two to three times the amount of customs revenue
actually collected for the Afghan government was probably lost to corruption. The government
                                                                          garners almost half its
  Figure 6. Average Value of Bribes Paid by Respondents to Different
              Categories of Public Officials (in U.S. dollars)            total revenues from
                                                                                       customs fees and
                                                                                       tariffs.

                                                                               We also learned of
                                                                               issues relating to the
                                                                               command and control
                                                                               of the ACP and their
                                                                               revenue collection
                                                                               duties. This was also
                                                                               noted in the January
                                                                               2013 “Quarterly
                                                                               Report to Congress”
                                                                               from the Special
                                                                               Inspector General for
                                                                               Afghanistan
Source: United Nations Office on Drugs and Crime, “Corruption in Afghanistan,” Reconstruction, in
January 2010                                                                   which  the State
                                                                               Department
 commented that the main problem in fighting corruption and fraud in customs was resolving the
 issue of which Afghan government agencies should be present at the border and what specific
 authority they should have to impose duties or other fees. There is a Memorandum of
 Understanding between the Ministries of Interior and Finance which establishes the authorities of
 each ministry regarding the ABP and ACP and directs the ministries to work together to
 coordinate and support the activities of the Border and Customs Police. According to the
 memorandum, the ACP is organizationally part of the Ministry of Interior. Although we were
 informed that the MoI has little or no control over the employment of the ACP, the MoI is
 responsible to:

     •   approve, employ, and dismiss ACP personnel with MoF written recommendations,
     •   provide ACP with salaries and other incentives, and

18
  Special Inspector General for Afghanistan Reconstruction, Quarterly Report to the United States Congress,
January 30, 2013.



                                                       26
   •   recruit ACP candidates and maintain records.

The MoF is responsible for directing and managing the ACP with respect to:

   •   determining ACP duties, scope of authority, and location of work,
   •   providing additional training as necessary, and
   •   recommending to the MoI remunerations and punishment for ACP personnel.

Based on discussions with ABP officials and Coalition advisors, it did not appear that the
provisions of the Memorandum of Understanding were being enforced. Further, we were
informed that the Memorandum of Understanding concerning the ACP was not a feasible
approach and does not allow the MoI to enforce its personnel authority over the ACP. The lack
of clarity regarding the MoI’s enforcement of its personnel authority over the ACP lies in the
practice of MoF determining ACP duties, scope of authority, and location of work, as well as
recommending to the MoI remunerations and punishment for ACP personnel. The ACP was
currently staffed with about 600 personnel, all of whom were effectively under the control of the
MoF. The ABP Commanding General reported that the ACP was stood up using ABP patrolmen
that were reassigned to the MoF as Customs Police. Coalition advisors also reported that the
lack of training and oversight of the ACP could potentially lead to corruption.

The ACP are responsible for collecting customs revenue on goods crossing the border into
Afghanistan, while the ABP are responsible for nearly every other operational requirement for
the border crossings, yet the ABP appeared to have no authority over any customs activities. At
Torkham, the ABP commander and Coalition advisors confirmed that they had no visibility over
the ACP’s work there. Coalition advisors reported that their Afghan partners said that an ACP
customs officer at the Torkham customs yard was recently relieved of his duties for allegedly
skimming more than $20,000 in customs revenue each week for himself and others. We were
also advised of corruption taking place at the checkpoints along the routes leading to and from
the border crossings to Afghanistan’s major cities. One Coalition advisor estimated that it took
around $600-$1,000 in bribes to get a truckload of commercial goods from Torkham to Kabul.

According to discussions with ABP advisors, the Customs Police appeared to be one of the least
trained and supervised police groups and, therefore, the most susceptible to corruption. The
Memorandum of Understanding needed to be enforced to encourage the MoI and MoF to work
in tandem to provide proper training and oversight of the ACP. Another potential solution
offered was to have the ACP brought under operational control of the MoI.




                                               27
Recommendations
5. Commander, International Security Assistance Force:
   a. In coordination with United States Embassy Kabul and the Minister of Interior, complete
development of the Combined Comprehensive Border Strategy and support international
community and interagency efforts in the development of the Government of the Islamic
Republic of Afghanistan institutions that will significantly reduce diversion of Afghan
government funds at major border crossing points.
   b. In coordination with United States Embassy Kabul, advise the Minister of Finance to
enforce the provisions of the current Memorandum of Understanding, specifically those
requiring coordination of activities and responsibilities with the Ministry of Interior and Afghan
Border Police.
   c. In coordination with United States Embassy Kabul, the Minister of Interior, and the
Minister of Finance, devise a method to clearly separate administrative and operational control
of Afghan Border Police and Afghan Customs Police in a manner conducive to reducing
corruption at the airports and major border crossing points.


Client Comments
ISAF partially concurred with Recommendation 5.a. ISAF requested that we revise the
recommendation. Instead of ISAF executing a plan to significantly reduce diversion of Afghan
government funds at major border crossing points, ISAF recommends they should provide
support to the international community and interagency efforts in the development of GIRoA
institutions that will significantly reduce the diversion of funds at the major border crossing
points.

ISAF concurred with Recommendation 5.b, as written, providing no additional comments.

NTM-A concurred with Recommendation 5.c. However, they asked us to revise our observation
and recommendation. NTM-A provided clarifying information addressing the Memorandum of
Understanding between the MoI and the MoF, stating it was not workable and does not allow the
MoI to enforce its personnel authority over the ACP. NTM-A offered a revised recommendation
which would bring the operational control of the ACP under the MoI, or if that would not work,
a second option of splitting the Customs mission, with the ABP performing search and evidence
collection, and the Afghan Customs Department, under the MoF, performing customs
collections.

Our Response
ISAF comments to Recommendations 5.a and 5.b were responsive. We will request an update in
six months on the implementation of both recommendations.

NTM-A comments to Recommendation 5.c were responsive. The options offered by NTM-A
require an update/change to the current relationship between the MoI/ABP and the MoF/ACP.
We adjusted the recommendation to give ISAF primary responsibility, rather NTM-A, in



                                                28
coordination with Embassy Kabul. We request ISAF comments on this redirected
recommendation.




                                           29
THIS PAGE INTENTIONALLY LEFT BLANK




                30
Observation 6. Afghan Border Police Zone Commander
Authority
ABP zone commanders did not have the authority to remove certain ABP personnel within their
zone, nor could they appoint key ABP leaders without approval from ABP Headquarters.

The ABP, like the rest of the ANSF, still adheres to the centralized military command and control
model instilled by the Soviet military during its occupation and retains authority regarding key
personnel hiring and firing decisions of leaders at the highest levels of the organization.

This management model directly impedes the ability of the zone commander to professionalize
his forces by removing corrupt individuals and hiring those with proven leadership abilities and
potential. It also potentially fosters corruption, cronyism, and nepotism by individuals at the
highest levels of the ABP and MoI.

Applicable Criteria (See Appendix C, Number 6, for additional details.)
   •   MoI Deputy Minister for Policy and Strategy, “Assignment, Reassignment (Cyclic) of
       ANP Generals and Officers,” 2010.

Discussion
Senior commanders within the ABP almost uniformly shared the opinion that the limitations
imposed on their authority to assign personnel, and perhaps more critically, to remove or suspend
incompetent or incapable officers, impaired their capability to command. In one instance, a zone
commander reported that a kandak commander had been relieved of a kandak command, but was
reappointed to a second kandak command within the zone, after possibly purchasing the position
through an MoI official. In another zone, ABP officials reported that unqualified candidates
presented themselves for officer positions using letters of introduction from MoI, while the
qualified officer candidates the zone leadership presented to MoI for appointment or promotion
were not advanced. The ensuing dysfunctional personnel system and command relationships had
a palpably negative effect on morale.

The MoI policy “Assignment, Reassignment (Cyclic) of ANP Generals and Officers” establishes
the transfer and reassignment procedures for all officers and NCOs within the MoI police
structure, which includes the ABP. However, this policy was not discussed at any time during
our fieldwork, so there is uncertainty as to whether or not ABP commanders were aware of the
policy. Specifically, the policy holds the authority to transfer or reassign officers within the
police forces at the MoI level and only gives zone commanders the authority to reassign or
replace NCOs. To be effective, ABP zone commanders must have the authority to remove
subordinate commanders and officers who are ineffective or corrupt.




                                               31
Recommendation
6. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, advise the Minister of Interior and the Afghan
Border Police Commander to delegate authority to zone commanders for hiring and removal of
subordinate commanders and officers, when just cause has been established.


Client Comments
NTM-A concurred with Recommendation 6, requesting minor clarifying changes in the
observation and recommendation.

Our Response
NTM-A comments to Recommendation 6 were responsive. We will request an update in six
months on the status of the MoI delegating authority to zone commanders for hiring and removal
of subordinate commanders and officers when just cause has been established.




                                              32
Observation 7. Afghan Border Police Logistics
MoI logistics processes in support of the ABP, although improving, were still not capable of
providing adequate support to the ABP in their operating areas on a timely and sufficient basis.

This situation exists because of:

   •   a logistics policy that contains elements of the Soviet logistics model that withholds
       approval authority for requisition of minor items of supply at unnecessarily high levels,
   •   reluctance or inability of Afghan logisticians to forecast supply requirements and plan
       sufficiently ahead,
   •   distances and danger involved in travel to remote ABP locations to complete
       investigations/deliver or pickup supplies and equipment,
   •   disincentives to replace destroyed vehicles and remove them from property books, and
   •   failure of ABP zone and kandak logisticians to follow-up with the Regional Logistics
       Centers on MoI-14 supply requests.

As a result, ABP units are not receiving their authorized/replacement equipment and supplies in a
timely manner, hindering the ABP zone commanders’ ability to perform their mission and
adversely affecting unit personnel morale.

Applicable Criteria (See Appendix C, Number 9, for additional details.)
   •   MoI Logistics Management Directorate, “Process for the Management of Logistics,”
       January 6, 2009.

Discussion
Background and Prior Coverage
As one of the pillars of the ANP, the ABP relied on the MoI/ANP logistics system for logistics
support. The MoI logistics policy, “Process for the Management of Logistics,” prescribes
common procedures, formats, forms, and time standards for the logistics management processes
of the MoI and movement of logistic information between supporting and supported
organizations and activities of the ANP/ABP.

The DoD IG assessment team had previously assessed the MoI/ANP logistics system and, during
fieldwork for this assessment, saw evidence of improvement in the system. However, the MoI
logistics processes in support of the ABP were still not capable of adequately supplying the ABP
in their operating areas on a timely and sufficient basis. Previous coverage by the DoD IG SPO
assessment team included:

   •   SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip, and Field the
       Afghan National Security Forces,” September 30, 2009. In this report we stated, “The
       Afghan National Security Forces’ logistics systems that support the Afghan National
       Army and the Afghan National Police, respectively, remained institutionally immature
       and insufficiently effective. Army and Police personnel have not become proficient in



                                                33
       applying the established logistical model and did not demonstrate a high degree of
       confidence in the logistics system’s capacity to perform as designed. To ensure the
       supply system worked somewhat effectively, the ANA and ANP often depended upon
       U.S. mentors and trainers to ‘push’ them needed equipment and supplies by mobilizing
       the support of U.S. counterparts in the ANSF supply chain.”

   •   SPO-2011-003, “Assessment of U.S. Government Efforts to Train, Equip, and Mentor the
       Expanded Afghan National Police,” March 3, 2011. We stated, “The ANP logistical
       system is in a nascent state of development and lags operational needs. ANP operational
       commanders and their logistics personnel lack confidence in the supply process, which
       does not provide visibility of the status of their MoI 14 request in the supply chain.”

   •   SPO-2012-109, “Assessment of U.S. Government and Coalition Efforts to Develop the
       Afghan Local Police,” July 9, 2012. Our assessment was, “The MoI logistics system did
       not provide timely support to the ALP program. Specifically, it did not provide ALP
       units with authorized equipment upon completion of their ALP training, timely re-supply
       them with fuel and ammunition or provide them with other critical items of other
       supplies, such as winter uniforms.”

ABP Logistical Impacts
Although progress was noted in the development of the MoI logistics system, concerns we had in
previous assessments continued to impact the ABP efforts. There was near universal agreement
by Coalition advisors and Afghan personnel that the logistics system was not sufficiently
reliable, responsive, or sustainable.

The MoI logistics policy establishes procedures for submitting MoI-14s and, per the policy, the
“Support Activity Commander’s” signature is required to validate requested materiel. This
appeared to be appropriate for requisitions of significant items or quantities of supplies.
However, the policy was often carried to extreme levels, requiring general officer signatures to
requisition items such as toilet paper and, in one case, 2 general’s signatures were required for 48
tubes of toothpaste. Reminiscent of the Soviet style logistics model, which was centralized and
required high levels of command approval, the MoI logistics policy/model did not enable
logisticians to request minor items of supply or recurring items without senior commanders’
signatures. This contributed to delays in reorder and resupply and created an atmosphere of
mistrust among the Afghans.

Another example where the centralized logistics policy appeared to have a large impact was the
approval process for investigations into combat-loss of equipment and its replacement. Zone
commanders reported losses and submitted equipment replacement requests to the ABP
Headquarters for approval at that level and then ABP Headquarters forwards the requests to MoI
for final approval. In three zones, commanders submitted paperwork requesting replacement
vehicles following damage assessments and, in two of the zones, the commanders complained of
long periods of time waiting for approval and replacement. In the third case, the Coalition
advisors explained that, over an unspecified period of time, paperwork requesting replacement of
about 90 destroyed vehicles had been forwarded to the MoI. Very few had been replaced.




                                                34
The ABP have become accustomed to receiving supply items almost automatically because of
the supply (“push”) logistics methodology used to initially stand up the ANSF, and transitioning
them to the demand (“pull”) system was challenging. The reluctance of Afghans to forecast
supply requirements, or inability to do so, was evident throughout the ABP. One NTM-A
official stated that the primary logistics challenge was transitioning the Afghans from a hoarding
culture to a “pull” system. During our fieldwork, we were informed by Coalition advisors that
the ABP generally did not forecast requirements, despite the advisors efforts to stress the
importance of that task.

Due to the remote locations of some of the ABP units and the dangers presented by insurgent
activity, the ABP had difficulty receiving supplies and equipment. In some areas, they depended
on animal transportation due to poor road conditions, or no roads at all. Vast distances to reach
regional logistic centers and restricted terrain limited travel and provided opportunity for
insurgents to ambush, attack, and place IEDs to impede transport and travel. The ABP did not
have helicopters and it was reported that some locations had gone up to five months without
resupply.

Moreover, there were no incentives to turn in broken or unserviceable vehicles. Fuel was
allocated to the ABP based upon the number of unit operational vehicles, so when a broken
vehicle was reported to the MoI, the fuel allocation was terminated. However, there was a
lengthy delay in receiving replacement vehicles, so there was an additional disincentive to report
or turn in broken vehicles. Furthermore, Coalition advisors and ABP commanders reported that,
in some instances, the ABP had more vehicles than they required; therefore, there was no reason
to hurry and report an unserviceable vehicle and lose the fuel allocation.

In four of the zones visited, it was reported to the team that the inability to track submitted
MoI-14s was hindering the logistics system and, in some cases, ABP kandak logisticians didn’t
know the status of MoI-14s or would not attempt to track them. In RC-East, one Coalition
advisor said, “the regional logistics center could be likened to a black hole—requests go in, but
they don’t come out.” The team did learn that the MoI-14 process was better understood overall
by Afghan security forces and Coalition advisors than what we had heard on previous
assessments. However, not tracking or being able to track supply requisitions was still a
significant impediment to the logistics system.

The DoD IG team recognized that the U.S. and Coalition advisors were working hard to address
significant challenges in training and mentoring logisticians in the kandaks and at the regional
logistics centers in all of the zones we visited. Furthermore, the team understood that the early
focus for ANSF development was growth of kinetic capability through force generation and not
logistics. However, with ongoing transition of security to ANSF lead, a refined MoI logistics
policy, updated with lessons learned from the field, and the development of a MoI-14 tracking
mechanism should be completed as soon as possible.




                                                35
Recommendations
7. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/ Combined
Security Transition Command-Afghanistan, advise the Minister of Interior to:
   a. Revise the ministry’s logistics policy in order to decentralize approval authority for
selected Afghan Border Police items of supply.
   b. Develop standards for the combat-loss replacement process, setting time-lines for each
step in the process.
  c. Revise the ministry’s logistics policy in order to establish and enforce MoI-14 tracking
and follow-up procedures from the kandak-level, through the zone and Regional Logistics
Center, to the Ministry of Interior National Supply Depots.


Client Comments
NTM-A concurred with Recommendations 7.a, 7.b, and 7.c.

NTM-A stated that the approval authority for supply items should be decentralized for the entire
ANP and not be exclusive to the ABP.

Regarding recommendation 7.b, NTM-A reported that two policies had received MoI approval:
(1) policy to drop equipment from property books and (2) vehicle disposal process.

They further recommend that the ABP headquarters be included in the MoI-14 tracking process
in order to allow the ABP Logistics Director to hold zones accountable for adherence to the MoI
policy. The ABP headquarters could further monitor developing trends of equipment shortfalls,
training gaps, or non-compliance with supply procedures.

Our Response
NTM-A comments to Recommendations 7.a, 7.b, and 7.c. were responsive.

For Recommendation 7.b, we request a copy of the policies: (1) to drop equipment from property
books, and (2) vehicle disposal process.

We will request an update in six months on all three recommendations.




                                                 36
Observation 8. Automotive Management Services
Maintenance Contract Supporting the Afghan Border Police
The Automotive Management Services (AMS) maintenance contract did not adequately meet the
maintenance needs of the ABP.

This occurred because:

   •   The ABP were often unwilling to bring unserviceable vehicles over extended distances
       and difficult, dangerous terrain to an AMS facility.
   •   Some AMS satellite maintenance facilities have been closed, mostly due to withdrawal of
       U.S. and Coalition forces from the area and the perceived degradation in security.
   •   The contract did not require AMS to retrieve unserviceable vehicles.

As a result, the lack of routine vehicle maintenance and timely vehicle repair has or will lead to:

   •   reduced operational readiness rates,
   •   “parking” of serviceable vehicles (saving them until really needed—leading to an
       additional set of maintenance issues),
   •   unserviceable vehicles being stockpiled (undocumented “bone yards”),
   •   uncontrolled cannibalization of parts, and
   •   increased maintenance costs.

Applicable Criteria (See Appendix C, Number 3, for additional details.)
   •   Automotive Maintenance Services Contract AMS W52P1J-11-C-0014.

Discussion
All vehicle maintenance for the ANP, including the ABP, was contracted under Contract AMS
W52P1J -11-C-0014 to Automotive Management Services. The contract includes 2011 as the
base contract year, with four option years through 2015. The contract specifies AMS will
maintain fleet operations and operational readiness for all ANP vehicles at maintenance sites
throughout Afghanistan and the operation of a Central Maintenance and Supply Facility in
Kabul.

During our fieldwork, feedback on the performance of AMS maintenance support was mixed.
Generally, with only a few exceptions, opinions on the quality of AMS maintenance and services
were favorable. The quality of AMS maintenance work was generally described as “adequate,”
“good,” or “working well.” However, there were numerous complaints about availability of
AMS services from leaders, staff, and advisors. The most common complaints heard and
discussed during the assessment included lack of an AMS recovery capability, the risks and
resources associated with bringing vehicles to AMS maintenance sites, and AMS facility
closures.




                                                37
Lack of AMS Recovery Capability
As per the contract, AMS does not retrieve unserviceable ANP vehicles. Unless a maintenance
contact team visits a unit to perform basic organizational level maintenance repairs, 19 ABP must
tow or transport non-mission capable vehicles to AMS maintenance facilities. Although ABP
had sufficient wreckers and flat-bed trucks to tow and transport non-mission capable vehicles,
we were told that, due to the security threats and distances between AMS locations, it was a
challenge for the ABP to get those vehicles to the AMS facilities. AMS forward support teams
were stationed at some smaller forward bases to conduct organizational level maintenance and
AMS also employed 21 maintenance contact teams in 2011-2012 to travel to remote ABP
locations to service and conduct organizational level repairs of ABP vehicles. Some customers
complained that these contact teams rarely visited units at the more remote or dangerous ABP
locations, of which there were many, and there were some complaints that the teams that did visit
failed to bring the right parts or tools.

In response, NTM-A and AMS modified the AMS contract to add more contact teams for
organizational level repairs, increasing the number of teams from 21 to 43 by December 2012.
AMS changed the contact team composition to employ Afghan local nationals and outfitted them
with typical Afghan vehicles to help them blend in with the local population. As local nationals,
their movements were exempted from Coalition force protection restrictions. AMS also
acknowledged that coordination between units and contact teams had been a problem, so the
company increased efforts to coordinate and prepare the units and the contact team for visits.
The purpose was to agree upon which vehicles needed to be repaired or serviced, and to
coordinate parts, tools, and other information with the AMS facility supporting the team. AMS
contact teams were authorized to stay at a unit for up to 30 days, if needed.

Travel to AMS Facilities: Distance, Risks, and Resources
AMS requires repairs above the organizational level to be performed at an AMS fixed site, which
requires the ABP to deliver the vehicles requiring service. Several ABP units resisted bringing
vehicles to AMS fixed maintenance facilities for services and repairs because of the insurgent
threat, attacks, IEDs, and the long distances between units and repair facilities, especially in
some of the larger zones and more remote areas. One Coalition advisor believed that releasing
ABP personnel to accompany maintenance convoys was a manpower issue for the ABP,
potentially affecting the border mission, plus an ABP officer stated that securing maintenance
movements was a “big problem” for the ABP. Additionally, the ABP did not always have
enough fuel to run the transport vehicles back and forth to the fixed maintenance facilities,
according to some Coalition advisors.

Closure of AMS Facilities
Compounding the challenges the ABP already had with vehicle recovery and travel was the
closure of some of the AMS fixed maintenance facilities. Security concerns were cited as the
reason for work slow-downs and the eventual closure of some maintenance sites. In the summer
of 2012, NTM-A mandated the use of armed guards for contractors, which reportedly caused a
19
   Organizational level maintenance consists of the lowest level of maintenance requiring a mechanic. Functions at
the organizational level include minor repairs, replacement of minor damaged body parts, and preventative
maintenance such as oil/filter changes, top off of fluids, replace mirrors/wiper blades, etc.



                                                        38
temporary drop in AMS services because there were no U.S. forces or third-country nationals
trained or available to provide force protection. According NTM-A, 11 AMS sites were closed
or consolidated between January 2011 and December 2012. Five of those closed as a direct
result of security incidents or threats that raised doubts about the safety of the workers at those
particular sites. Other AMS facilities continued their operations, whether or not they were in
compliance with NTM-A’s armed guard requirement.

Another circumstance contributing to the closure of AMS maintenance sites was the de-scoping
of the AMS maintenance contract in preparation for MoI’s planned takeover of all ANP
maintenance and supply chain operations by December 2014. Some satellite maintenance
centers that closed for security reasons, and were already scheduled to be de-scoped in 2013,
remained closed. Also, while NTM-A and AMS added 22 contact teams in 2012, they also
demobilized 8 forward support teams. Higher-level maintenance staff officers and AMS
managers estimated that AMS mechanics had physically inspected, repaired, or serviced only
about 50 percent of the vehicles belonging to the ABP and ANP. So it was determined that
increasing the number of contact teams was a way to reach more vehicles and fulfill the terms of
the contract, which required them to maintain the entire ANP fleet.

Problems Related to Lack of Maintenance
Problems related to the lack of routine vehicle maintenance and service was cited by many of the
stakeholders interviewed.      Figure 5. Vehicles Being “Saved” for Future Use at the Regional
With the lack of visibility                  Training Center in Zone 2 (RC-East)
on an estimated 50
percent of the ABP and
ANP fleet, there was no
way to determine a fleet
operational readiness
rate. As stated
previously, it is
anticipated that the 22
contact teams added in
2012, which will travel
to the ABP units, will
provide the ability to
establish an operational
readiness rate for the
fleet. Furthermore,
because ABP units had
                             Source: DoD IG
no automotive tools other
than basic issue items, few mechanics, few trained vehicle operators, and very few spare parts,
there were reports of vehicles being temporarily repaired at the units rather than being repaired to
maintenance standards. There were also reports of non-mission capable vehicles being used for
spare parts by the units, and there were reports of vehicles that were never driven, serviced, or
even started—being saved for when they are really needed. This practice will lead to additional
maintenance issues—dead batteries, flat tires, cannibalized parts, and other problems.




                                                 39
Some advisors tried to assist by teaching ABP personnel operator maintenance at the unit level,
but this was not the norm. Additionally, some ABP staff officers discussed establishing local
contracts for organizational-level repairs, especially in remote areas, but there were differing
opinions regarding the feasibility of this course of action.

Future of ABP Maintenance
NTM-A’s fielding plans show the following proposed ANP maintenance system, completely
operated with MoI/ANP organic assets in 2015 and beyond:

   •   National Level: An MoI support command, including a transportation brigade and a
       National Logistic Center (National Training Center) at Wardak,
   •   Regional Level: Seven regional logistics centers—each with a maintenance company and
       a recovery platoon—and eight MoI supply points, and
   •   a number of maintenance support teams at the provincial and district levels reporting to
       the regional maintenance companies and the MoI supply points.

ABP and other ANP units are likely to face many of the same issues with MoI’s proposed
organic maintenance system that they face now with the AMS system, including lengthy travel
distances to service facilities and enemy-initiated attacks en route. The plans for MoI
maintenance included some centralized recovery assets at the regional level, with regional
logistics centers, maintenance support teams, and contact teams slated to perform operator and
organizational level maintenance tasks. There was no known plan for AMS managers and
mechanics to facilitate the transition of ANP maintenance to MoI, although funds for that
purpose were thought to be available. In support of the ANP and ABP, AMS currently manages
an authorized parts stockage list of more than 3,000 vehicle parts and trains and supervises a
workforce of more than 1,000 mechanics. By the current proposal, MoI has limited time to field
a similar trained and experienced maintenance work force and build a functioning vehicle supply
chain management system.

Recommendations
8. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/ Combined
Security Transition Command-Afghanistan:
   a. Advise the Minister of Interior to prepare for transition from the Automotive
Management Services Maintenance contract by determining how long-term Afghan Border
Police comprehensive vehicle maintenance, training, and provisioning requirements will be
met (post-2014).
   b. In coordination with the Minister of Interior, ensure contracts are in place for
comprehensive vehicle maintenance requirements, to include training of Afghan Border Police
units/mechanics on basic vehicle maintenance and Minister of Interior procedures to procure
spare parts.


Client Comments
NTM-A concurred with Recommendations 8.a and 8.b. NTM-A stated that Professional
Architects & Engineers (PAE) are currently contracted to provide vehicle maintenance training


                                               40
to the ABP and other ANP personnel. NTM-A recommended that the comprehensive
maintenance, training, and provision of spares contract bid be offered through approved
contracting processes and not assumed to be an amendment to the current AMS contract.

For recommendation 8.a they requested that we revise the recommendation with minor changes,
which did not change the intent of the recommendation.

Furthermore, based on recent developments relating to the contracting process and the
performance of the contractor referenced since Observation 8 was originally drafted, NTM-A
also requested that we change recommendation 8.b. Instead of modifying the current contract to
include training mechanics and procuring spare parts, NTM-A recommended that a
comprehensive maintenance, training, and provision of spare parts contract bid should be offered
through the approved contracting process.

Our Response
NTM-A comments to Recommendations 8.a and 8.b were responsive. We accepted their
proposed revision to the recommendations.

For Recommendation 8.b, we request a copy of the section of the PAE contract with the
requirement to train Afghan Border Police units/mechanics on basic vehicle maintenance and
MoI procedures to procure parts.

We will request an update in six months on the status of both recommendations, along with a
copy of any contracts which are put in place for the comprehensive vehicle maintenance
requirements, to include training of ABP units/mechanics on basic vehicle maintenance and MoI
procedures to procure spare parts.




                                              41
THIS PAGE INTENTIONALLY LEFT BLANK




                42
Observation 9. Accountability for Damaged, Destroyed, Lost,
or Stolen Vehicles and Equipment
When negligence or accidents resulted in damage, destruction, loss, or theft of ABP vehicles or
other military equipment, ABP commanders had not uniformly enforced existing MoI logistics
policy that required determination of accountability.

The concept of individual soldier responsibility for equipment damaged, lost, or stolen was not
commonly understood or accepted. Although ABP field commanders generally understood that
MoI logistics policy required accountability, they often did not implement the intent of the
policy.

As a result, there existed a general perception among individual ABP soldiers and commanders
that there were no consequences for negligent destruction or loss of ABP equipment and
supplies. This attitude has contributed to damage and loss of equipment largely supplied by the
U.S. and Coalition forces at an unacceptable and unsustainable level. Moreover, the absence of
broad acceptance by ABP leadership of accountability as a critical requirement portends that the
ABP may not maintain its core equipment at the required levels of operational readiness in the
future.

Applicable Criteria (See Appendix C, Number 9, for additional details.)
   •   MoI Logistics Management Directorate, “Process for the Management of Logistics,”
       January 6, 2009.

Discussion
Through FY 2012, the U.S. has appropriated more than $46 billion to train, equip, and sustain
the ANSF. Understandably, the U.S. has focused on developing the ANSF to exercise due
diligence in the use and care of         Figure 7. Destroyed Vehicles at a Regional Training
provided equipment and vehicles.                      Center in RC-Southwest
However, a number of Coalition
advisors reported that they had not
seen evidence that established
procedures for individual
accountability were routinely
enforced. In one instance, a patrolman
was sentenced to three years in prison
for damaging a vehicle. Yet in
another situation, a patrolman
damaged a vehicle, only to badly
damage it again driving it out of the
repair facility, and was not held
accountable at all. In addition, some
Coalition advisors reported that
accountability for missing winter      Source: DoD IG
uniform items, such as coats, was not



                                               43
enforced and these items frequently had to be replaced.

The MoI has established policies and procedures that provide commanders the authority to hold
their personnel accountable, both uniformed and civilian. The MoI logistics policy establishes a
requirement to document the circumstances concerning the loss, damage, or destruction of Class
VII items, 20 including a mandatory initiation of a materiel investigation, if negligence is
suspected.

Given the sufficiency of MoI policy and procedure regarding equipment accountability, the
apparent failure to enforce the proper use and upkeep of ABP equipment would seem, in part, to
be a lack of leadership understanding and/or commitment to the operational importance of
maintaining and sustaining core equipment. This situation was aggravated by the shortage of
well-trained logistics personnel to consistently carry out these functions.

The future operational readiness of the ABP will be increasingly dependent on the commitment
and ability of commanders to account for and maintain unit equipment, sustained by the ABP
logistical system. Therefore, MoI and ABP commanders must proactively apply their existing
MoI policies regarding equipment accountability.

Recommendation
9. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan, advise the Minister of Interior to establish a
timely process for ensuring that a verifiable determination of command and personal
responsibility and accountability occurs when Afghan Border Police equipment is damaged,
destroyed, or missing as a result of negligence.


Client Comments
NTM-A concurred with Recommendation 9, stating that the process was published following the
initial observation and it is currently in the implementation phase.

Our Response
NTM-A comments to Recommendation 9 were responsive. We request a signed copy of the
published document outlining the process to ensure timely investigation and follow-up in the
event of negligence. Additionally, we will request an update in six months on the
status/effectiveness of implementation of the process.




20
   Class VII items are major end items of supply, such as trucks, that have a high dollar value relative to other supply
items. Because of their cost and importance to force readiness, major end items are usually controlled through
command channels.



                                                          44
Observation 10. Minister of Interior Identification Card and
Vetting Team
Although the MoI has a team of officials responsible for re-vetting and providing new
identification (ID) cards to ABP personnel deployed throughout the country, the team has not
fully performed their mission at many ABP locations or executed it at all at certain sites.

This occurred because:

   •   The MoI team did not stay on location long enough to re-vet and issue MoI ID cards to
       all the ABP present.
   •   The MoI team perceived that travel to and staying at remote ABP locations was too time
       consuming and/or dangerous, and therefore would not travel to those sites.

Failure to complete the process to issue MoI ID cards to all ABP prevented ABP personnel from
receiving their pay, increased the risk of corruption and, even more importantly, increased the
potential for green-on-blue or green-on-green attacks.

Applicable Criteria
None

Discussion
In the early stages of ANP force development, large numbers of personnel were recruited.
However, many were never vetted properly and many were never issued identification cards. At
the time, ANP force generation was accomplished under a recruit and assign model because of
the need to grow the force rapidly. Over time, vetting procedures were re-designed and
improved and, in 2010, a new force generation model of recruit, train, and assign was adopted
for the ANP. DoD IG reported on this new model in DoD IG report SPO-2011-003, March 2011.

With the new recruit, train, and assign model in place, new ABP personnel, for the most part,
attended basic training, were vetted properly, were biometrically enrolled in the MoI database,
and then received ID cards. As the ABP force approached full end strength, the focus shifted
towards professionalizing the force with increased personal accountability requirements. MoI
realized that a significant portion of the force already assigned throughout the country had never
received basic training and required re-vetting, biometric enrollment, and ID cards. Additionally,
green-on-blue and green-on-green attacks were becoming more common and many of the
attackers had not been properly vetted and were not easily identifiable, which further justified
timely action. The MoI put together re-vetting/ID teams to travel around Afghanistan to re-vet
and issue ID cards to all ABP personnel.

During our fieldwork, we discussed the MoI re-vetting teams with U.S. and Coalition advisors
and ABP leaders in four of the six ABP zones. One zone reported they were satisfied with re-
vetting and ID card issue; however, they also reported that they were satisfied with the process
because, as advisors, they had put a concerted effort into getting it completed themselves. The




                                                45
other three zones reported problems with the MoI teams. We were informed:

   •   The MoI team stayed for approximately one week, performed their duties at the zone
       headquarters, the airport, and one of the seven kandaks. The MoI team said traveling to
       the other kandaks was too dangerous, requiring security and transportation that was not
       available. Furthermore, the MoI team did not stay long enough for the outlying ABP
       personnel to report to their headquarters for processing.
   •   The MoI team showed up and only stayed for three days, not nearly long enough to
       complete processing of the ABP personnel in the vicinity of the zone headquarters, let
       alone those in more remote locations. Of the 10 MoI team members that arrived, 7 said
       they were leaving early because the area was too dangerous.
   •   The MoI team issued ID cards to personnel close to the headquarters, but with some
       kandaks inaccessible because of poor road conditions or security concerns, they did not
       complete their work. Additionally, in this zone, the MoI teams would only issue ID cards
       to ABP personnel having a bank card. The advisor had been informed by the MoI team
       that the bank card was necessary because everyone required some form of identification
       to prove who they were prior to receiving an ABP ID card.
Identification cards will reportedly be mandatory by January 2014 because the Afghan Human
Resource Information Management System and the Electronic Pay System requires the use of a
service number which comes off of the ID card and ties the two data systems together. Per the
implementation schedule, as briefed to the DoD IG team, pay will only be distributed to those in
the Human Resource Information Management System as of January 2014. Furthermore, with
the increase in green-on-blue and green-on-green attacks, there is a compelling reason for having
all ANSF personnel vetted properly and carrying proper identification.

Recommendation
10. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, advise the Minister of Interior to place
priority emphasis on the re-vetting/identification card process at each Afghan Border Police
unit location, mandating on-site issuance to all Afghan Border Police and after-action reporting
of completion to the Ministry of Interior, prior to departure of the Ministry of Interior
identification card team.


Client Comments
NTM-A concurred with Recommendation 10, as written, providing no additional comments.

Our Response
NTM-A comments to Recommendation 10 were responsive. We will request an update in six
months on the status of ABP re-vetting and on-site issuance of ID cards to the ABP.




                                               46
Observation 11. Intelligence Training for Afghan Border
Police
Training for ABP intelligence personnel has not been conducted.

This has occurred because billeting and dining facilities for ABP students were not available for
their use at the Police Intelligence Training Center (PITC).

As a result, ABP commanders would not send students to PITC to attend training. According to
NTM-A, the ABP intelligence capability cannot reach Capability Milestone 2B without
resolution of this issue. 21

Applicable Criteria
None

Discussion
The Afghan Border Police intelligence community is comprised of almost 450 officers and non-
commissioned officers. Of those personnel, less than 75 had received formal intelligence
training at PITC in Kabul. PITC is recognized as the intelligence training center for the MoI, the
Directorate of Police Intelligence, and all police pillars including ABP. The reported class size
for the basic course was 20 students; however, PITC offered more than 30 courses with a total
capacity of around 90 students per week. The basic course is a prerequisite to advanced
intelligence training courses, so advanced courses do not occur on a regular basis either.

Sending personnel from outside the Kabul area to training was not an option because prospective
students did not have adequate billeting and dining facilities available to them at the training
center. PITC is located at the Afghan National Targeting and Exploitation Center (Center),
which is a functional command with operations ongoing 24 hours a day. Although billeting
facilities did exist, we were informed that the Center commander had not allocated enough
billeting or rations for the PITC students. There were no other training commands located at the
Center.

Overall, the ABP intelligence capability was at Capability Milestone 3, and they could not
progress to Capability Milestone 2B without increasing the number of trained personnel to
greater than 50 percent of their section. Furthermore, Coalition advisors noted that the ABP
Intelligence Section did not have the capability to analyze information and produce useful
intelligence due to a lack of training.

Although a formal process was in place for reporting, the intelligence personnel reported up and
down their chains of command, but there was almost no lateral flow of information between
ABP zones or among other members of the ANSF. This problem was not necessarily a training
issue only, but appropriate training could facilitate better coordination.


21
  A Capability Milestone is component of the Ministerial Development Plan that measures the capability of the
MoI to conduct autonomous operations across 47 functional areas.



                                                       47
Reportedly, the ABP leadership would like to have full classes, but PITC does not run full time
because of the billeting issues. Because PITC did not have regularly scheduled classes, ABP
zone commanders could not effectively schedule their intelligence personnel for training and,
instead, waited for an invitation to the class, which rarely, if ever, occurred.

We asked advisors in three of the six ABP zones if their Afghan (ABP Intelligence) partners had
attended the intelligence basic training course in Kabul. In one of the zones, the Coalition
intelligence advisor had no idea training was available, and he did not know if any of the
intelligence personnel had any training. In the other two zones, advisors told us they knew a
formal course existed; however, the Afghan intelligence personnel in their zones had only
received informal training provided by the advisors themselves.

Training was not occurring because billeting and meals were not available, and scheduling
classes was nearly impossible because the course is not run on a full time basis. Zone
commanders would not send their personnel to PITC without proper facilities available and
without knowing when the course would be presented, they could not plan appropriately.

Recommendations
11. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
Security Transition Command-Afghanistan:
     a. Assist the Minister of Interior to find an alternative location for the Police Intelligence
Training Center that can accommodate student billeting and rations and move the course to
that location or resolve the issue of sharing and staffing the facility in Kabul.
     b. Advise the Minister of Interior regarding the necessity to have the zone commanders
informed as to when the courses would be presented at the Police Intelligence Training Center.
11.c. Commander, International Security Assistance Force Joint Command, in coordination
with Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, inform United States and Coalition
advisors working with the Afghan Border Police regarding the availability of training at the
Police Intelligence Training Center, determine who needs the training in their Border Police
units, and advise those units to schedule the training and send the personnel.


Client Comments
NTM-A concurred with Recommendations 11.a and 11.b. NTM-A stated that due to competing
requirements of the Network Targeting Exploitation Center and the compound Security Force,
and a lack of operational dining facility to support students at PITC, the ABP Basic Intelligence
Course is now conducted at an alternate site arranged by ABP and instructed by Mobile Training
Teams provided by PITC.

IJC concurred with Recommendation 11.c, as written, providing no additional comments.

Our Response
NTM-A comments to Recommendations 11.a and 11.b were responsive.


                                                  48
For Recommendation 11.a, we will request an update in six months regarding the number of
Border Police personnel that have received basic intelligence training and the status of the
Mobile Training Teams to be provided by PITC.

No further action is required for Recommendation 11.b.

IJC comments to Recommendations 11.c. were responsive. We will request an update in six
months on the implementation of this recommendation.




                                               49
THIS PAGE INTENTIONALLY LEFT BLANK




                50
Observation 12. Afghan Border Police Basic Training
Nearly 18 percent of ABP patrolmen have not received basic training.

This has occurred because:

     •   Officials from NTM-A, ABP Headquarters, and ABP regional training centers differed
         on the number of ABP who had not received or still needed basic training.
     •   Although training seats were available, ABP commanders were reluctant to send their
         patrolmen to training during the fighting season.
     •   Terrain and weather often make it difficult for patrolmen to attend training during the
         winter months.
     •   Some ABP personnel had served in their positions for years and commanders no longer
         believed there was a requirement to send them to this training.

Failure to provide a basic level of training to all ABP personnel has hampered the
professionalization of the ABP, limiting its mission effectiveness and, thus, general acceptance of
the ABP by the Afghan populace as a legitimate security pillar of the government of Afghanistan.

Applicable Criteria
None

Discussion
As of November 2012, NTM-A officials reported that nearly 18 percent of ABP patrolmen had
not received basic training, which still represents a high percentage of the ABP force that has not
received instruction, in particular, on the rule of law or human rights—issues covered in
classroom training that are unlikely to be conveyed in on-the-job training.

During this assessment, we found regional police training centers using an approved program of
instruction from MoI. 22 We also found that many of the centers used Afghan instructors or were
in the process of training Afghan instructors to deliver the program of instruction.

However, when our team requested training numbers, officials from NTM-A, ABP Headquarters,
and regional police training centers all reported different numbers of ABP who have not received
and still required basic training, thus raising concerns about the reliability of NTM-A’s reported
training completion rates. In November 2012, NTM-A reported that approximately 80 percent of
patrolmen completed basic training, yet Coalition advisors at the zone level said they reported
higher rates of untrained patrolmen to NTM-A. Some regional training centers we visited
reported that up to half of the seats in basic police training were unfilled or had high rates of
students that did not finish the basic course, raising further concerns about the reliability of
NTM-A’s data on basic training completion.

22
   In 2009, we reported that the ABP did not receive a standardized program of instruction in the Focused Border
Development training program. See DoD IG report, SPO-2009-007, “Assessment of U.S. and Coalition Plans to
Train, Equip, and Field the Afghan National Security Forces,” September 30, 2009.



                                                       51
Regional training centers were reportedly required to keep a training file on the patrolmen
receiving training; however, according to NTM-A officials, this practice was not enforced across
all the zones and a written policy codifying this requirement did not exist. In addition, the only
personnel records kept at the ministerial level were for officers and non-commissioned officers.
Each zone was responsible for keeping personnel records for patrolmen and no policy regarding
                                                                           documentation of their
     Figure 8. ABP Patrolmen at Basic Training Course at the Regional      training existed at the
                   Training Center in Zone 2 (RC-East)                     ministerial level.
                                                                            NTM-A and MoI were
                                                                            in the process of
                                                                            implementing an
                                                                            electronic records
                                                                            management system.
                                                                            However, this system
                                                                            would utilize the
                                                                            current training files
                                                                            containing faulty data
                                                                            on personnel who had
                                                                            received and/or
                                                                            completed training.

                                                                           Although training seats
                                                                           were available,
                                                                           Coalition advisors
 Source: DoD IG
                                                                           reported that ABP
commanders with whom they worked were reluctant to send their patrolmen to training for a
number of reasons. Some did not feel they could spare the patrolmen for the eight-week course
during the fighting season, but also found that terrain and weather often made it difficult for
patrolmen to attend training during the winter months. Other Coalition advisors reported that the
ABP personnel in their zones had served for years without basic training and that commanders
did not think there was a need to send them to this training.

Uncertainty regarding the basic training status of patrolmen across the ABP raises concerns about
the ABP’s ability to maintain the rudimentary records that document the training element of force
professionalization. In addition, the failure to provide a basic level of training to all ABP
personnel further hindered the professionalization of the ABP, limited its mission effectiveness,
and impeded acceptance of the ABP by the Afghan populace as a legitimate security pillar of the
Afghan government.




                                                52
Recommendations
12. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan, in coordination with the International
Security Assistance Force Joint Command, advise the Minister of Interior to:
     a. Develop a program to verify and document training received for all Afghan Border
Policemen.
    b. Develop and implement a plan that will identify and reduce the number of Afghan
Border Policemen who have not completed basic training.


Client Comments
NTM-A concurred with Recommendations 12.a and 12.b, as written, providing no additional
comments.

Our Response
NTM-A comments to Recommendations 12.a and 12.b were responsive. We will request an
update in six months on the implementation of both recommendations, along with an estimate of
ABP personnel who have not completed basic training.




                                              53
THIS PAGE INTENTIONALLY LEFT BLANK




                54
Observation 13. Afghan Border Police Gender Integration
Coalition forces and MoI planning has resulted in unrealistic gender integration goals for many
of the ABP zones.

This situation exists because the current Coalition and MoI goals and criteria for ABP gender
integration were developed without taking into consideration the societal limitations imposed on
the use of female ABP personnel.

As a result, gender integration goals will not be reached in most ABP zones by 2014, which will
impede conducting inspections of women, or men dressed as women, crossing the border. This
will increase security risks and could result in a loss of significant government revenue at border
crossing sites.

Applicable Criteria (See Appendix C, Numbers 1 and 2, for additional details.)
   •   Afghan Border Police, “Ministerial Development Plan,” September 9, 2012.
   •   Afghan National Police, “Solar Year 1391 Tashkil,” January 2013.

Discussion
The “National Defense Authorization Act of 2012” authorized $1.9 billion of the Afghan
Security Forces Fund to support the development of the MoI and the ANP. Between 2002 and
2012, the U.S. contributed $759 million from this fund to the Law and Order Trust Fund for
Afghanistan (LOTFA)—the multilateral mechanism for coordinating donor contributions to
build the ANP. One of LOFTA’s priorities is increasing the participation of women in the ANP.
In conjunction with the MoI, NTM-A redeveloped their Ministerial Development Plan to include
gender integration as a priority for the ANP. The plan established metrics for evaluating ABP
progress on gender integration issues and required Coalition advisors to be assigned to the MoI
to assist the ABP commanders with gender integration matters. Aligning with the plans, LOTFA
provided funds for female ANP positions, including ABP personnel, which appeared on the MoI
Tashkil. Since 2011, these funds have been designated to fund female ABP salaries.

As of December 2012, MoI officials reported that approximately 25 percent of the MoI Tashkil
positions for women had been filled. Eighty-three percent of the filled positions were located at
the ABP headquarters in Kabul, at airports, or in zones 4 and 5, and about 10 percent of the
positions filled were for an officer’s rank. Despite having positions set aside on the Tashkil,
NTM-A officials reported there were more positions authorized on the Tashkil than MoI could
fill, especially in zones 1, 2, 3, and 6. Several factors contributed to the positions going unfilled,
but according to NTM-A officials, the prevailing obstacle was the societal limitation on women’s
roles in Afghan society, which varied across Afghanistan’s ethnic cultures and regions.

While positions for female ABP appeared on the Tashkil, the facilities and resources to support
them did not. To meet the standards of Afghan culture, female ABP members require separate
facilities, including toilets, changing rooms, and prayer rooms, which were not present in most
ABP facilities and not listed on the Tashkil. ABP Headquarters for example, where 17 percent of
female ABP personnel worked, did not have separate facilities for women. The training centers
we visited did not have separate facilities to accommodate female recruits and many of the



                                                 55
Coalition advisors at the zone level with whom we spoke, all male, had little or no contact with
the few female ABP in their region.

Many of the Coalition zone-level advisors, and the NTM-A ABP advisor to the MoI with whom
we spoke, were unable to confirm whether female ABP had been included in the MoI vetting
process. As a result, the number of ABP positions held by women could not be confirmed
despite having funds designated by LOTFA for these positions. In general, Coalition and
NTM-A officials reported that few female ABP received training, and accurate data on the
number of female ABP who completed training were unavailable. NTM-A officials also
reported that, in practice, Afghan recruitment guidelines for female ABP were more stringent
than for men, requiring women applying for patrolmen positions to have a 12th grade education,
while, for men, a 12th grade literacy rate was a requirement for receiving an officer’s
appointment.

ABP leadership in Zone 5 (RC-N) created a professional space for female ABP that met regional
cultural norms and allowed the women to contribute to the ABP mission. Additionally, the ABP
in Zone 5 ran separate training courses for female ABP and operated a child development center
in the headquarters office for preschool-aged children of ABP. To ensure the safety of female
    Figure 4. Zone 5 Child Development Center       ABP, the command provided transportation
                                                     to and from work. While the social climate
                                                     in Northern Afghanistan may have allowed
                                                     more participation for women in the ABP,
                                                     some of the relatively innovative practices
                                                     used in zone 5 could be adapted for use in
                                                     other zones.

                                                      Despite societal limitations, female ABP
                                                      play a key role in the ABP mission to secure
                                                      borders and ports of entry by conducting
                                                      searches of women. In the Afghan culture,
                                                      only women may conduct searches of other
                                                      women. At ABP sites, women, or men
                                                      dressed as women to avoid detection, have
Source: DoD IG                                        been reported carrying contraband goods
                                                     across the border, including narcotics,
weapons, and fertilizer used to make improvised explosive devices. This reportedly has been
particularly the case in regions where insurgent activity is highest. The absence of women at
ABP sites creates security vulnerabilities, allows opportunities for smugglers to avoid paying
customs fees on legal goods, and limits the ability of Coalition forces and ABP to provide
security for women conducting legitimate business.

As Coalition forces prepare to transition full responsibility for border security to the ABP, it is
critical that realistic gender integration and recruitment level goals be established and funded,
both for the accomplishment of the ABP mission and for the safety of the female ABP already at
work.




                                                56
Future gender goals must balance several factors:

   •   the female personnel required to execute the ABP mission,
   •   the regional variances in the role of women in public life and societal limitations on
       women that occur at the zone level, and
   •   the level of ABP and NTM-A leadership commitment to ensuring engagement and
       training of female ABP for the ABP mission.

Recommendations
13. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan, in
coordination with Commander, International Security Assistance Force Joint Command, advise
the Minister of Interior to:
     a. Conduct a review to determine what mitigating actions can be taken to make
professional participation by women in the Afghan Border Police more feasible on a zone by
zone basis.
    b. Conduct an assessment of what gender integration goals can be realistically reached in
each ABP zone after any mitigating actions identified have been taken and modify the Tashkil
and Ministerial Development Plan accordingly.
13.c. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan, in
coordination with Commander, International Security Assistance Force Joint Command,
determine what additional resources, if any, can be made available to support gender
integration activities in an adjusted Ministerial Development Plan.


Client Comments
NTM-A concurred with Recommendations 13.a, 13.b, and 13.c. NTM-A stated that the ABP’s
Ministerial Development Plan was amended and endorsed by NTM-A Deputy
Commander-Police and the ABP Commanding General, to include gender-balanced recruiting,
specific career paths for female police, and fair training opportunities for women within the
ABP. Goals are recommended to be set along these three lines of effort.

Our Response
NTM-A comments to Recommendations 13.a, 13.b, and 13.c were responsive.

For Recommendation 13.b, we request a copy of the referenced Ministerial Development Plan.

We will also request an update in six months on the status of all three recommendations.




                                                57
THIS PAGE INTENTIONALLY LEFT BLANK




                58
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from August 2012 to March 2013 in accordance with the
standards published in the “Quality Standards for Inspections.” We planned and performed the
assessment to obtain sufficient and appropriate evidence to provide a reasonable basis for our
observations and conclusions, based on our assessment objectives. Site visits in Afghanistan
were conducted from October 22 to November 8, 2012.

We reviewed documents such as Federal laws and regulations, including the “National Defense
Authorization Act,” Chairman of the Joint Chiefs of Staff instructions, DoD directives and
instructions, and appropriate U.S. Central Command, NATO/ISAF, IJC, NTM-A, and MoI/ABP
guidance.

The objectives of this assessment were to determine whether the planning and operational
implementation of efforts by U.S. and Coalition forces to train, advise, and assist in the
development of the ABP were effective. This included visiting various ABP locations around
Afghanistan to determine the effectiveness of U.S. and Coalition involvement in developing the
capability of the MoI to manage ABP requirements. To ensure a thorough basis for our
conclusions and recommendations, we visited ABP logistics, training, personnel, and
headquarters officials in five of the six Afghan National Police zones. We did not visit
Zone 4/Regional Command-West due to the difficulty in arranging transportation and the limited
presence of Coalition advisors in that zone.

We also visited or contacted organizations and individuals in the U.S. and Afghanistan that were
directly responsible for, or advised the commanders responsible for, developing the ABP based
on our previous work in the area of Afghan police development and the advice of DoD IG
personnel permanently stationed in Afghanistan with NTM-A and IJC. We reviewed the
programs and processes used in developing the sustainable operational and logistical capability
of the ABP and spoke with appropriate U.S., Coalition, and Afghan leaders and managers at all
levels.

The ABP development assessment chronology was as follows:

August–October 2012                         Research and fieldwork in CONUS
October 22–November 8, 2012                 Fieldwork in Afghanistan
November 10, 2012                           Out-brief to IJC and NTM-A
November 2012–March 2013                    Analysis, report writing, and reviews
March 5, 2013                               Draft report issued
April 4, 2013                               Management comments received, evaluated, and
                                            reviewed
May 24, 2012                                Final report issued




                                               59
Limitations
We limited the scope of this review to DoD- and NATO-funded programs and international
donation programs supporting the development of the ABP.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.

Use of Technical Assistance
We did not use technical assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report:

ABP                  Afghan Border Police
ACP                  Afghan Customs Police
AMS                  Automotive Management Services
ANA                  Afghan National Army
ANP                  Afghan National Police
ANSF                 Afghan National Security Forces
C-IED                Counter-Improvised Explosive Device
DoD IG               Department of Defense Office of Inspector General
GPPT                 German Police Project Team
ID                   Identification Card
IJC                  ISAF Joint Command
ISAF                 International Security Assistance Force
LOTFA                Law and Order Trust Fund for Afghanistan
MoF                  Ministry of Finance
MoI                  Ministry of Interior
NTM-A                North Atlantic Treaty Organization Training Mission-Afghanistan/
                     Combined Security Transition Command-Afghanistan
PITC                 Police Intelligence Training Center
RC                   Regional Command




                                                 60
Appendix B. Summary of Prior Coverage
During the last four years, the DoD, the Government Accountability Office (GAO), the Special
Inspector General for Afghanistan Reconstruction (SIGAR), the Commission on Wartime
Contracting, the Congressional Research Service, and the DoD IG have issued a number of
reports discussing the development of the MoI and ANP.

Unrestricted DoD reports can be accessed at http://www.defense.gov/pubs.
Unrestricted GAO reports can be accessed at http://www.gao.gov.
Unrestricted SIGAR reports can be accessed at http://www.sigar.mil.
Unrestricted Congressional Research Service Reports can be accessed at http://www.crs.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.
Prior coverage by other agencies includes:

Department of Defense
Report to Congress in accordance with Section 1230 of the “National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181),” as amended, and Section 1221 of the “National
Defense Authorizations Act for Fiscal Year 2012 (Public Law 112-81),” “Report on Progress
Toward Security and Stability in Afghanistan,” December 2012

Report to Congress in accordance with House Resolution 2219 (Report 112-110) and Section
1230 of the “National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181),”
as amended, “Report on Progress Toward Security and Stability in Afghanistan and United
States Plan for Sustaining the Afghanistan National Security Forces,” April 2012

Government Accountability Office
GAO-12-951T, “Afghanistan Security: Long-standing Challenges May Affect Progress and
Sustainment of Afghan National Security Forces,” July 24, 2012

GAO-11-710, “Afghanistan: Actions Needed to Improve Accountability of U.S. Assistance to
Afghanistan Government,” July 20, 2011

GAO-09-280, “Afghanistan Security: U.S. Programs to Further Reform Ministry of Interior and
National Police Challenged by Lack of Military Personnel and Afghan Cooperation,” March 9,
2009

Special Inspector General for Afghanistan Reconstruction
SIGAR-Audit 13-1, “Afghan National Security Forces Facilities: Concerns with Funding,
Oversight, and Sustainability for Operations and Maintenance,” October 30, 2012

SIGAR-Audit 11-10, “Despite Improvements in MoI’s Personnel Systems, Additional Actions
Are Needed to Completely Verify ANP Payroll Costs and Workforce Strength,” April 25, 2011

Congressional Research Service
“Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” April 4, 2012


                                             61
“Afghanistan: Politics, Elections, and Government Performance,” December 12, 2011

“War in Afghanistan: Strategy, Military Operations, and Issues for Congress,” June 8, 2010

Department of Defense Office of Inspector General
SPO-2012-109, “Assessment of U.S. Government and Coalition Efforts to Develop the Afghan
Local Police,” July 9, 2012

SPO-2011-003, “Assessment of U.S. Government Efforts to Train, Equip, and Mentor the
Expanded Afghan National Police,” March 3, 2011

SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip, and Field the Afghan
National Security Forces,” September 30, 2009




                                              62
Appendix C. Criteria – MoI/ANP Policy
 1. Afghan Border Police, “Ministerial Development Plan,” September 9,
    2012. The purpose of the plan is to identify mission critical capabilities necessary to
    transition the ABP to autonomous operations. It establishes tasks and outputs which will
    enable NTM-A advisors and ABP staff to work together toward common goals.
 2. Afghan National Police, “Solar Year 1391 Tashkil,” January 2013. This
    is the Afghan document that authorizes personnel and equipment for an organization,
    similar to a U.S. military Table of Organization and Equipment.
 3. Automotive Maintenance Services Contract AMS W52P1J-11-C-0014.
    The contract that requires Automotive Maintenance Services to perform all maintenance,
    except operator level maintenance, on ANP vehicles.
 4. Ministries of Interior and Defense and National Directorate of
    Security, “Joint Order 179,” September 13, 2012. This document directs the
    ANA, ANP, and National Directorate of Security to coordinate and synchronize security
    and logistic operations, to include route clearance and casualty evacuation, in anticipation
    of the withdrawal of ISAF combat forces by the end of 2014.
 5. Ministries of Interior and Finance, “Memorandum of Understanding
    on Managing the Border Crossing Points,” July 2009. The purpose of this
    document is to describe the respective roles and responsibilities of Afghan Customs
    Authorities, Customs Police, and the ABP at the border and to provide the framework for
    the development of cooperative working arrangements between the Ministries of Interior
    and Finance.
 6. MoI Deputy Minister for Policy and Strategy, “Assignment,
    Reassignment (Cyclic) of ANP Generals and Officers,” 2010. The
    purpose of this policy is to create a system or procedure for reassignment and transfer of
    officers and non-commissioned officers in all levels of the police force.
 7. MoI Deputy Minister for Strategy and Policy, “National Police Plan for
    Solar Years 1390-1391,” February 2011. This document provides planning
    guidance for the continued development of MoI/ANP operational capabilities to meet
    Afghanistan's current and future challenges of stabilization, civil order, law enforcement,
    and security. It assigns major tasks for each of the deputy ministers and independent
    departments to complete during the next two years according to the National Police
    Strategy.
 8. MoI Deputy Minister for Strategy and Policy, “National Police
    Strategy.” The purpose of this document is to provide strategic guidance for the
    continued development and operational capability of the MoI to meet Afghanistan's
    current and future challenges of stabilization and security. This strategy specifies the
    objectives for continued development of the police, law enforcement activities, and
    associated systems.
 9. MoI Logistics Management Directorate, “Process for the Management
    of Logistics,” January 6, 2009. This policy prescribes common procedures,


                                             63
formats, forms, and time standards for the logistics management processes of the MoI
and movement of logistic information between supporting and supported organizations
and activities. The policy applies to all civilian and police activities and organizations of
the MoI.




                                         64
Appendix D. Organizations Contacted and
Visited
We contacted, visited, or conducted interviews with officials (or former officials) from the
following U.S., NATO, and Afghan organizations:
Afghanistan

U.S./NATO Commands in Afghanistan
   •   Commander, ISAF and selected staff
   •   Commander, NTM-A and selected staff (including Ministry Advisors)
   •   Commander, IJC and selected staff (including ABP Advisors in each zone visited)
   •   Deputy Commander-Police, NTM-A and selected staff (ABP Development)
   •   Deputy Commander-SPO, NTM-A
   •   Commander, RC-E and selected staff
   •   Deputy Commander, RC-E
   •   Commander, RC-S and selected staff
   •   Commander, RC-SW and selected staff
   •   Commander, RC-N and selected staff
   •   Commander, RSC-E and selected staff
   •   Commander, Joint Border Coordination Center Khyber Pass
   •   Commander, Joint Border Coordination Center Wesh-Chaman

U.S. Embassy-Kabul
   •   Political/Military Advisor
   •   Border Management Task Force Afghanistan

Bilateral Organizations
   • European Union Police Mission in Afghanistan staff
   • German Police Project Team
Government of the Islamic Republic of Afghanistan

Ministry of Interior
   •   Minister of Interior Chief of Staff
   •   Deputy Minister of Interior for Security
   •   ABP Commanding General (Headquarters)
   •   ABP Operations Officer (Headquarters)

ABP Zone 1
   •   Zone Commander
   •   Zone Personnel Officer
   •   Zone Logistics officer
   •   Commander, Regional Logistics Center
   •   Khyber Joint Border Coordination Center



                                                 65
ABP Zone 2
  •   Zone Commander
  •   Zone Logistics Officer
  •   Commander, Regional Training Center
  •   Commander, Regional Logistics Center

ABP Zone 3
  •   Zone Commander
  •   Zone Personnel Officer
  •   Zone Logistics Officer
  •   Wesh-Chaman Joint Border Coordination Center

ABP Zone 5
  •   Zone Commander
  •   Zone Executive Officer
  •   Zone Logistics Officer
  •   Commander, Regional Training Center
  •   Commander, Regional Logistics Center

ABP Zone 6
  •   Zone Commander
  •   Zone Personnel Officer
  •   Zone Logistics Officer
  •   Commander, Regional Logistics Center

Airports
  •   Kabul International
  •   Kandahar
  •   Mazar-e-Sharif




                                             66
Appendix E. Management Comments
ISAF Response




                   67
68
IJC Response




               69
Comment Matrix – available upon request




                                  70
NTM-A/CSTC-A Response




                        71
72
73
74
75
76
77
78
79
80
Appendix F. Report Distribution
Department of State
U.S. Ambassador to Afghanistan
Assistant Secretary of State for Political-Military Affairs
Inspector General, Department of State
Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Acquisition, Technology, and Logistics (AT&L)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense, Personnel and Readiness
Deputy Assistant Secretary of Defense for Maintenance, Plans, and Programs, AT&L
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Deputy Assistant Secretary of Defense, Afghanistan, Pakistan, and Central Asia
Deputy Assistant Secretary of Defense, Partnership Strategy and Stability Operations
Vice Chairman of the Joint Chiefs of Staff
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Joint Staff
Director, Operations (J-3)
Director, Strategic Plans and Policy (J-5)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Forces Command
Commander, U.S. Army Materiel Command
Chief, National Guard Bureau
Chief, U.S. Army Reserve
Commander/Chief of Engineers, U.S. Army Corps of Engineers
Commander, Afghanistan Engineer Division, U.S. Army Corps of Engineers
Auditor General, Department of the Army
Inspector General of the Army

Department of the Navy
Naval Inspector General




                                                 81
Department of the Air Force
Inspector General of the Air Force

Combatant Commands
Commander, U.S. Central Command

Other Defense Organizations
Commander, International Security Assistance Force/U.S. Forces–Afghanistan*
       Commander, International Security Assistance Force Joint Command*
       Commander, NATO Training Mission-Afghanistan/Combined Security Transition
                Command–Afghanistan*
Director, Defense Contract Management Agency
Director, Defense Intelligence Agency
Director, Joint Center for International Security Force Assistance

Other Non-Defense Federal Organizations
Special Inspector General for Afghanistan Reconstruction

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Committee on Appropriations
       Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
       House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform


*Recipient of the draft report




                                             82
Special Plans & Operations
 Provide assessment oversight that addresses priority national security
 objectives to facilitate informed, timely decision-making by senior
 leaders of the DOD and the U.S. Congress.



 General Information
   Forward questions or comments concerning this assessment and report and other
   activities conducted by the Office of Special Plans & Operations to spo@dodig.mil

                      Deputy Inspector General for Special Plans & Operations
                            Department of Defense Inspector General
                                       4800 Mark Center Drive
                                    Alexandria, VA 22350-1500




                           Visit us at www.dodig.mil


   DEPARTMENT OF DEFENSE



   hot line                              make a difference
                                             800.424.9098
                                                             Report                        www.dodig.mil/hotline
                                                             Fraud, Waste, Mismanagement, Abuse of Authority
                                                             Suspected Threats to Homeland Security
   Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
